U.S. Department of Justice
Office of the Inspector General




 An Investigation of Overtime Payments
to FBI and Other Department of Justice
    Employees Deployed to Iraq and
              Afghanistan




                                  Office of the Inspector General
                                  Oversight and Review Division
                                                  December 2008
                          TABLE OF CONTENTS
TABLE OF CONTENTS ..................................................................................... i

TABLE OF APPENDICES ................................................................................ iv

CHAPTER ONE: INTRODUCTION ................................................................... 1
I.   Methodology of the Investigation ............................................................ 1
II.  Organization of the Report ..................................................................... 3
III. Summary of Findings ............................................................................ 4

CHAPTER TWO: BACKGROUND REGARDING PREMIUM PAY CATEGORIES
     AND TIME REPORTING PROCEDURES APPLICABLE TO FBI
     EMPLOYEES ......................................................................................... 8
I.   Categories of Premium Pay .................................................................... 8
II.  Procedures for Reporting Time ............................................................... 9
III. Laws, Regulations, and Policies Governing Overtime Compensation
     for FBI Employees.................................................................................. 9
     A.    General Principles ...................................................................... 10
     B.    Requirements for Paying Scheduled Overtime ............................. 11
     C.    Work Activities Compensable with Overtime Pay......................... 13
           1.    Time spent standing by or in on-call status....................... 13
           2.    Time spent sleeping and eating ......................................... 14
           3.    Time spent working out..................................................... 15
           4.    Time spent commuting...................................................... 15
     D.    Changing the Regular Workweek ................................................ 15

CHAPTER THREE: BACKGROUND ON THE FBI IN IRAQ.............................. 17
I.   Deployments to Iraq............................................................................. 17
II.  Employee Assignments ........................................................................ 17
     A.    Interrogations............................................................................. 17
     B.    Task Forces................................................................................ 18
     C.    Training ..................................................................................... 18
III. Living Arrangements for FBI Employees in Iraq .................................... 19
     A.    Green Zone ................................................................................ 19
     B.    Baghdad International Airport (BIAP).......................................... 20
     C.    Other Iraq locations.................................................................... 20
     D.    Doha, Qatar ............................................................................... 21
IV.  The FBI’s Command Structure in Iraq.................................................. 21
V.   Time Reporting Procedures in Iraq ....................................................... 21

CHAPTER FOUR: FBI MEMORANDA, GUIDANCE, AND TRAINING
    REGARDING OVERTIME IN IRAQ ........................................................ 22
I.  CTD Memoranda ................................................................................. 22
    A.   The 2003 Overtime Memorandum .............................................. 22
    B.   The Administrative Services Division Memorandum.................... 23
    C.   The 2005 Overtime Memorandum .............................................. 24


                                                     i
        D.    The 2007 Overtime E-mail.......................................................... 26
        E.    The March 2008 Overtime Memorandum.................................... 26
II.     The “Pay Sheets”.................................................................................. 28
III.    Pre-Deployment Training ..................................................................... 30

CHAPTER FIVE: OVERTIME CLAIMS BY FBI EMPLOYEES IN IRAQ ............. 32
I.   Time Reported ..................................................................................... 32
II.  Cost of Overtime in Iraq ....................................................................... 34
III. Time Actually Worked .......................................................................... 36
     A.    FBI Employees in Baghdad......................................................... 36
           1.    Trainers in Baghdad ......................................................... 37
           2.    Regime Crimes Liaison Office ............................................ 39
           3.    Major Crimes Task Force .................................................. 40
     B.    Baghdad International Airport .................................................... 41
     C.    Other Iraq Locations................................................................... 42
     D.    Doha, Qatar ............................................................................... 43
IV.  Employee Justifications ....................................................................... 44
V.   Concerns About Overtime Claims Are Raised in FBI Headquarters ....... 45
VI.  FBI Management Positions on Pay Practices......................................... 49
VII. Conclusions Regarding Hours Worked in Iraq ...................................... 51

CHAPTER SIX: ANALYSIS OF FBI OVERTIME PRACTICES IN IRAQ.............. 53
I.   Consistency with Statutes, Regulations, and Policies ........................... 53
     A.     Whether the FBI Allowed Employees To Claim Overtime for
            Non-Work Activities.................................................................... 53
            1.       Eating............................................................................... 53
            2.       Exercising......................................................................... 54
            3.       Commuting....................................................................... 54
            4.       Recreation and Socializing ................................................ 55
            5.       Standing By ...................................................................... 55
     B.     Whether Overtime Was Properly Scheduled in Advance .............. 56
     C.     Whether the FBI Properly Ordered and Approved Overtime ......... 59
II.  Whether the FBI Improperly Changed its Employees’ Official
     Workweeks in Order To Award Sunday Pay.......................................... 61
III. Estimate of the Total Cost of Improperly Paid Overtime and
     Sunday Pay ......................................................................................... 62
IV.  Guidance and Supervision Provided to FBI Employees Deployed
     to Iraq ................................................................................................. 63

CHAPTER SEVEN: FBI IN AFGHANISTAN..................................................... 67
I.   Background......................................................................................... 67
II.  FBI Memoranda, Guidance, and Policy................................................. 68
III. Overtime Claims by FBI Employees in Afghanistan .............................. 68
IV.  Conclusions about Overtime in Afghanistan......................................... 70

CHAPTER EIGHT: RECENT MODIFICATIONS OF FBI POLICY ...................... 72


                                                       ii
CHAPTER NINE: OVERTIME CLAIMS AT OTHER DOJ COMPONENTS.......... 78
I.   Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) ................. 78
     A.    Background ............................................................................... 78
     B.    Pay Practices .............................................................................. 78
II.  Drug Enforcement Administration (DEA).............................................. 80
     A.    Background ............................................................................... 80
     B.    Pay Practices .............................................................................. 81
III. United States Marshals Service (USMS) ............................................... 81
     A.    Background ............................................................................... 81
     B.    Pay Practices .............................................................................. 82
IV.  Conclusions about Other DOJ Components ......................................... 83

CHAPTER TEN: CONCLUSIONS AND RECOMMENDATIONS ........................ 84




                                                   iii
                      TABLE OF APPENDICES


Appendix A   2003 Overtime Memorandum


Appendix B   ASD Memorandum


Appendix C   2005 Overtime Memorandum


Appendix D   November 2, 2007, E-Mail From Kevin L. Perkins


Appendix E   March 2008 Overtime Memorandum


Appendix F   Pay Sheet


Appendix G   FBI’s Letter in Response to this Report dated December 15, 2008




                                 iv
                               CHAPTER ONE:
                               INTRODUCTION

      This report describes the results of an investigation by the Department of
Justice’s (Department or DOJ) Office of the Inspector General (OIG) into
allegations that many FBI employees sent to Iraq received overtime pay in
excess of the amounts permitted under federal pay statutes, federal
regulations, and agency policies. Along with the OIG, the Federal Bureau of
Investigation’s (FBI) Inspection Division participated in this investigation into
the conduct of FBI agents. In addition, the OIG investigated whether
employees of other Department components, including the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); the Drug Enforcement Administration
(DEA), and the United States Marshals Service (USMS) also received overtime
pay in excess of permissible amounts.

       This investigation began in October 2007 when an FBI employee (who
asked to remain anonymous) alleged to the OIG that FBI agents were paid for
working 16 hours per day, 7 days per week (112 hours per week) while they
were stationed in Iraq, regardless of the number of hours they actually worked.
Based in part on a second complaint received by the OIG in February 2008, we
expanded the investigation to include a limited examination of overtime
practices by FBI employees in Afghanistan. The OIG further expanded its
investigation when it learned that employees of ATF, DEA, and USMS working
in Iraq or Afghanistan had also been claiming pay for as much as 16 hours per
day, 7 days a week.


I.    Methodology of the Investigation

      The United States began the war in Afghanistan in October 2001 and the
war in Iraq in March 2003. Since then, the FBI and other components of DOJ
have deployed over 1,000 employees to Afghanistan and Iraq, mostly for tours
of 3 months or less. According to the Department and its components, as of
mid-2008 the following approximate numbers of employees have been deployed
to these countries:




                                       1
                                   TABLE 1

                      DOJ COMPONENT DEPLOYMENTS
                        TO AFGHANISTAN AND IRAQ


              Component               Afghanistan             Iraq


                  FBI                      596                1,150


                  ATF                       0                  145


                  DEA                      52                  45


                 USMS                      <10                 84



       In the course of this investigation, we interviewed over 60 FBI, DEA, ATF,
USMS, DOJ, and U.S. Army employees. Because it was not feasible to
interview all, or even a sizeable fraction of the employees who had served in
Iraq from DOJ components, we interviewed at least one employee from each
component who had worked in or was knowledgeable about each of the
locations where employees from those components had been stationed in Iraq.

      We also reviewed the time and attendance records submitted from early
2003 through October 2007 by every FBI employee who worked in Iraq. The
OIG also reviewed similar records for employees from the other DOJ
components.

      In addition, we reviewed several hundred documents relating to the FBI
employees’ deployments in Iraq, including memoranda, e-mails, orders, “after-
action reports” written by supervisors in Iraq, and questionnaires that some
FBI employees filled out after returning to the United States. The OIG reviewed
additional documents relevant to the other DOJ components that sent
employees to Iraq.

       We also reviewed the time and attendance records of FBI employees who
worked in Afghanistan during fiscal year 2007 and other documents related to
their deployments in Afghanistan. We also interviewed several FBI employees
who had been deployed to Afghanistan or supervised employees there. The


                                       2
DEA also sent employees to Afghanistan, and we examined documents and
interviewed DEA supervisors about their time and attendance practices there.

      In addition, we reviewed audits conducted by the FBI of FBI employee
overtime in Iraq and Afghanistan for the first three quarters of 2008. The FBI
conducted these audits after our investigation into these allegations began.

      We also reviewed the federal laws, regulations, and policies that relate to
time and attendance for FBI and the other components’ employees. In
addition, we consulted with the FBI Office of General Counsel regarding the
applicability of these rules to FBI employees’ claims for overtime pay in Iraq
and Afghanistan.


II.   Organization of the Report

      This report is divided into 10 Chapters. In Chapter Two we provide
background information regarding the types of “premium pay” that are
available to FBI agents, and we summarize the laws, regulations, and policies
governing overtime compensation for FBI employees. In Chapter Three we
provide factual background regarding the FBI’s mission in Iraq, including the
number of employees who served in Iraq, their activities, and their living
conditions.

      Chapter Four describes the various memoranda, e-mails, and training
materials issued by the FBI purporting to authorize overtime for employees in
Iraq and the instructions and training provided to FBI employees regarding
reporting their time while serving in Iraq.

       Chapter Five presents the facts regarding the number of hours that FBI
employees reported for pay purposes and the number of hours they actually
worked. It also describes the concerns raised by some FBI employees regarding
overtime claims in Iraq and the responses and positions of FBI managers
regarding such claims. In Chapter Six we analyze whether the FBI’s pay
practices for employees in Iraq were consistent with federal pay statutes,
federal pay regulations, and related FBI policies. We also assess the adequacy
of the supervision and guidance provided to FBI employees in Iraq.

      Chapter Seven reviews the FBI’s mission in Afghanistan and examines
issues relating to overtime claims that are similar to the issues raised with
respect to Iraq.

      Chapter Eight describes two additional policy documents that the FBI
issued during the OIG’s review for the purpose of correcting some of the
problems uncovered during this review.



                                        3
     Chapter Nine examines ATF, DEA, and USMS missions to Iraq and
Afghanistan and examines overtime pay practices in those DOJ components.

       Chapter Ten sets forth our conclusions and recommendations.


III.   Summary of Findings

       FBI agents worked long hours under difficult conditions in Iraq. On
certain days, some employees worked more than 16 hours. On occasion some
worked more than 24 hours straight. On other days, employees worked
significantly fewer than 16 hours. Due to the lack of accurate documentation
or other evidence about the number of hours particular employees actually
worked on each day, it is impossible to know the exact number of hours
worked by any particular individual in Iraq on any particular day.

      We found, however, that prior to 2008 FBI employees uniformly claimed
overtime for working 16 hours per day for every day of their tours in Iraq. We
concluded that this was not an accurate representation of the hours employees
worked. We found that, on the whole, few if any employees in Iraq worked
exactly 16 hours a day, every day for 90 days straight, within the meaning of
the term “work” as it is used in applicable regulations and policies. Although
some employees may have averaged 16 hours a day, we found that FBI
employees often actually worked fewer hours than the 16 hours that they
uniformly reported.

       The FBI’s Counterterrorism Division (CTD) was primarily responsible for
establishing and enforcing pay practices in Iraq for FBI employees. We found
that, in an effort to maximize compensation for FBI employees who volunteered
for Iraq duty, the CTD encouraged or condoned FBI employees’ practice of
routinely reporting all waking activities in Iraq, up to 16 hours per day, every
day, as “work” on their time and attendance forms.

      CTD managers and FBI employees offered to us several justifications for
this practice, including: (1) conditions in Iraq were harsh and there were few if
any recreational opportunities during off-hours; (2) employees in Iraq were
always in “on-call” status; and (3) 16 hours was a reasonable amount,
representing an approximate average given that on some days some FBI
employees worked around the clock, while on other days they worked fewer
than 16 hours.

       However, we concluded that the CTD’s administration of overtime pay
violated applicable laws, regulations, and FBI policies. We found that the CTD
permitted FBI employees to claim overtime for activities that are not
compensable as “work,” such as eating meals, exercising more than 3 hours
per week, and socializing. Moreover, while many FBI employees and


                                        4
supervisors attempted to justify their claims on their time and attendance
forms of 16 hours a day, 7 days a week by stating that even when they were
not actually working they were on standby status in Iraq (being available for
assignments but not actually working), federal pay regulations preclude paying
agents overtime for such duty because they are already receiving “availability
pay.”

       We found additional problems with respect to payment of this overtime to
FBI Special Agents. Special Agents are legally permitted to receive overtime
pay only if the overtime is scheduled in writing in advance of the workweek,
and only if they actually work the hours that were scheduled in advance. All
other work hours must be compensated with credits for “availability hours,”
effectively reducing the number of hours the agent has to work the rest of the
year. Averaging hours to maximize overtime pay is not permitted by federal
regulations.

       In addition, we found that the CTD violated FBI policy when it shifted the
regular workweeks for employees in Iraq from Monday through Friday to
Sunday through Thursday in order to obtain additional pay for FBI employees.
This switch had no practical impact because all employees were working 7-day
weeks. However, changing the schedule of the “regular” workweek enabled FBI
employees to claim a 25 percent pay differential for 8 hours of regularly
scheduled “Sunday work.” As a result of this change, typical FBI employees in
Iraq received approximately $1,000 extra (depending on their base salary) over
the course of their 3-month deployment in Iraq. Although FBI policy permits
employees to switch workweeks for certain circumstances, we found that those
circumstances did not exist in Iraq.

       We also found that the FBI failed to adequately examine the hours
reported by its employees. Until early 2008, the forms that FBI employees
used to report the hours they worked were “certified,” or approved, by
supervisors in the United States who had no personal knowledge of the hours
their agents were actually working in Iraq. In November 2007, as a result of
this investigation, the FBI changed this practice so that supervisors in Iraq are
now required to approve the hours that are reported by FBI employees in Iraq.

       We also found that prior to July 2008 CTD managers did not consult
with the FBI’s Human Resources Division or its Office of General Counsel to
determine whether the CTD’s overtime practices in Iraq were consistent with
law, regulation, and FBI policy. As a result, the CTD provided incomplete and
inaccurate guidance to FBI employees regarding the requirements for claiming
overtime. This incomplete and inaccurate guidance even continued when the
FBI issued additional guidance in March, July, and October, 2008, subsequent
to the initiation of this investigation.




                                        5
       Moreover, we found that the FBI did not perform the financial and
manpower analyses that are required before paying overtime under FBI
policies.

       We recognize that the FBI’s failure to comply with applicable laws and its
own policies in the early stages of the Iraq war was understandable to some
extent due to the crisis atmosphere in a war zone. However, the FBI has had 5
years since the Iraq war began to establish lawful overtime procedures, and it
failed to do so prior to the initiation of this investigation.

      As discussed in Chapter Five, as a result of controls implemented in
2008 in response to the initiation of this investigation, FBI employees in Iraq
are no longer claiming overtime based on a uniform 16-hour, 7-day schedule
(124 hours of overtime per 2-week pay period). In 2008, employees reported
working on average 106 hours per 2-week pay period, with corresponding cost
savings to the FBI. However, we believe that FBI employees are still obtaining
overtime hours that the law and FBI policy do not allow. As discussed below,
we believe that the FBI should implement further controls and guidance to
bring its policies and practices into full compliance with federal regulations.

      Finally, based on a more limited review, we also found that similar
problems affected FBI time and attendance practices in Afghanistan, as well as
ATF, DEA, and USMS time and attendance practices for their employees
deployed in Iraq and Afghanistan.

      In Chapter Ten, we make several recommendations for the FBI and other
DOJ components regarding their pay practices for employees deployed
overseas. Among other things, we recommend that the FBI clarify its overtime
guidance and that ATF, USMS, and DEA each issue a new guidance document
governing premium pay for employees in Iraq and Afghanistan. In general,
such policies should address the following issues:

      The components should instruct employees regarding what activities in
       Afghanistan and Iraq can be reported as “work” according to federal
       personnel regulations and Department policy. In particular, employees
       may not report mealtimes or commuting time as work unless certain very
       restrictive conditions are satisfied, and may not report time spent
       socializing. Agents also may not report time spent “standing by” as
       overtime hours.

      The components must establish individualized work schedules for
       employees that state the regular hours, availability pay hours, and
       scheduled overtime hours that the employees will be working on each
       day in the upcoming week. This schedule should correspond to the




                                        6
       actual work hours expected of the employees for the upcoming week
       being scheduled.

      Employees must submit accurate records of the hours they actually work
       on each day, without averaging time across days or weeks.

      According to federal pay statutes and regulations, components may pay
       overtime to agents only for hours that were scheduled in advance. If an
       agent works more hours than were scheduled in advance, the excess
       hours must be credited as availability pay hours and overtime pay may
       not be provided for these hours.

      If employees in Iraq and Afghanistan are normally scheduled for 7 days
       of work every week, the regular workweek should be Monday through
       Friday, and all hours scheduled for Saturday or Sunday should be
       compensated as overtime hours. Sunday pay should not be granted for
       overtime hours.

We also recommend that the FBI and DOJ components adopt procedures that
will permit a complete and accurate accounting of the costs for all categories of
premium pay that are provided to their employees serving in Iraq and
Afghanistan.




                                        7
                        CHAPTER TWO:
     BACKGROUND REGARDING PREMIUM PAY CATEGORIES AND TIME
       REPORTING PROCEDURES APPLICABLE TO FBI EMPLOYEES

      In this chapter we provide background information regarding the
categories of premium pay available to FBI employees. We also describe FBI
procedures for reporting employees’ time for compensation. In addition, we
summarize relevant laws, regulations, and FBI policies specifically addressing
overtime compensation for FBI employees.


I.       Categories of Premium Pay

      In addition to their regular salaries, FBI employees may qualify for
various types of “premium” pay. The following categories of premium pay were
awarded to almost all of the FBI employees who worked in Iraq:

        overtime for hours worked beyond the regular workday (paid as an
         hourly amount that for many employees is the same hourly rate as their
         regular salary but that for some lower-paid employees can be up to 50
         percent higher than their regular hourly salary); 1

        night differential (an additional 10 percent above the employee’s salary)
         for hours worked between 6:00 p.m. and 6:00 a.m.; 2

        Sunday differential (25 percent above salary) for up to 8 hours of non-
         overtime work on Sundays if Sunday is a regularly scheduled work day
         within the employee’s basic 5-day, 40-hour workweek; 3

        post differential (up to 25 percent extra for the first 40 hours per week)
         for work in locations that differ substantially from conditions in the
         continental United States and that warrant additional pay as a
         recruitment and retention incentive; 4

        danger pay (25 percent extra for the first 40 hours per week) for work on
         the basis of civil insurrection, civil war, terrorism, or wartime conditions

       1 5 U.S.C. § 5542. Because federal law limits the maximum rate that can be paid for

overtime, many employees in Iraq were paid no more than their basic hourly rate for overtime.
         2   5 U.S.C. § 5545(a); 5 C.F.R. § 550.121.
         3   5 U.S.C. § 5546(a); 5 C.F.R. § 550.171.
         45 U.S.C. § 5925(a); FBI Manual of Administrative Operations and Procedure, (MAOP)
Pt. 1 1.8-12(3). According to the FBI, this percentage increased from 25 percent to 35 percent
beginning in March 2006.




                                                  8
          which threaten physical harm or imminent danger to the health or well-
          being of the employee; 5 and

         holiday pay (twice the employee’s salary) for up to 8 hours of work on
          holidays, such as Christmas, if the holiday was a regularly-scheduled
          work day. 6

       In the United States, FBI employees can earn night and Sunday
differentials, and many FBI employees stationed abroad earn post differential
and danger pay. Few FBI Special Agents earn overtime – whether working in
the United States or abroad – because the FBI has rarely approved it.


II.       Procedures for Reporting Time

      Until recently, all FBI employees completed and signed forms (known as
“time and attendance” or “T & A” forms) every 2 weeks listing the hours they
worked. Employees would also account for their hours by signing in and out
on a daily basis, indicating their actual arrival and departure times. Each time
and attendance form was signed by the employee’s supervisor, certifying that
the hours entered were actually worked. Payroll clerks then entered the
information from the signed forms into a central payroll database.

      Employees who were working for extended periods in locations other
than their regular offices normally sent an e-mail to their payroll clerks stating
the hours that they had worked each day during a 2-week pay period.

      Recently, the FBI started using a new payroll system that allows
employees to enter their time directly into a payroll database rather than using
T & A forms and payroll clerks. The new system also no longer requires
employees to sign in and out with daily arrival and departure times, but
requires noting only the total daily hours worked.


III.      Laws, Regulations, and Policies Governing Overtime Compensation
          for FBI Employees

       In this section we summarize the relevant statutes, regulations, and FBI
policies governing overtime compensation.



         5 U.S.C. § 5928. According to the FBI, this percentage increased from 25 percent to
          5

35 percent beginning in March 2006.
          6   5 U.S.C. § 5546(b); 5 C.F.R. §550.103; 5 C.F.R. § 550.131(a).




                                                   9
       A.     General Principles

       The Federal Employee Pay Act (FEPA) contains the general overtime
provisions applicable to FBI agents and many FBI support employees. 5 U.S.C.
§ 5542(a). 7 Implementing regulations provide guidance and contain additional
requirements. Additional rules for FBI agents are set forth in the FBI’s Manual
of Administrative and Operational Procedures (MAOP). The particular rules
regarding compensation for hours worked above 40 hours per week are
different depending on whether the employee is a Special Agent or support
personnel.

      FBI Special Agents do not normally receive overtime pay. Instead, they
are compensated for most or all of their overtime hours through “availability
pay.” Availability pay is a form of premium pay authorized under the FEPA for
criminal investigators who routinely work unscheduled duty hours in excess of
the basic 40 hour workweek. See 5 U.S.C. §§ 5542(d)(2) and 5545a; 5 C.F.R. §
550.181(a). It pays Special Agents a 25 percent premium above their basic pay
rate. 5 U.S.C. § 5545a(h); 5 C.F.R. § 550.185(a). The purpose of availability
pay is “to ensure the availability of criminal investigators for unscheduled duty
in excess of a 40 hour workweek based on the needs of the employing agency.”
5 U.S.C. § 5545a(b). Availability pay is paid to criminal investigators who work
or are available to work an average of at least 2 extra hours each regular
workday above the normal 8-hour schedule. 5 U.S.C. § 5545a(d).

      Under the availability pay system, if Special Agents are required to work
more than 50 hours during a particular week, they usually receive no
additional pay. Instead, they get credit towards the average of the 2 extra
availability pay hours per regular workday that they are required to work for
the year, effectively reducing the number of hours they are required to work for
the rest of the year. However, if overtime has been scheduled in advance –
known as scheduled overtime – then Special Agents receive extra pay for the
hours above 50 they work. 5 U.S.C § 5542(d). Although the amount of extra
pay agents receive varies depending on their pay level, most Special Agents
receive their hourly basic pay rate for each hour of overtime. 5 U.S.C. §
5542(a)(4); MAOP, Pt. 1, § 8-2.1(3).

      Support personnel, including all those who are not Special Agents, work
40-hour weeks and do not receive availability pay. Therefore, they are entitled
to overtime for any hours they are required to work in excess of 40 hours per
week.

       7  The Fair Labor and Standards Act (FLSA), 29 U.S.C. § 201, contains additional
provisions relating to overtime, but FBI agents and most FBI support employees who served in
Iraq are exempt from the FLSA. See Manual of Administrative and Operational Procedures
(MAOP) Pt. 1, § 8-2.1.




                                             10
       B.     Requirements for Paying Scheduled Overtime

     Federal law and FBI policies contain explicit requirements regarding
when the FBI can pay overtime to its employees.

      First, FEPA requires regularly scheduled overtime work to be “officially
ordered or approved.” 5 U.S.C. § 5542(a). This requirement applies to both
FBI Special Agents and most other FBI employees. The regulations require
that the order or approval be memorialized “in writing by an officer or employee
to whom this authority has been specifically delegated.” 5 C.F.R. §
550.111(c). 8 The FBI’s MAOP requires that “[a]ll overtime work is to be
approved and scheduled in writing by supervisors and managers granted such
authority.” MAOP Pt. 1, § 8-2.1(8).

      Second, there are restrictions on paying overtime to law enforcement
agents who receive availability pay. Under both FEPA and its implementing
regulations, FBI Special Agents may only be paid for overtime for “work that is
scheduled in advance of the administrative workweek.” 5 U.S.C. § 5542(d); 5
C.F.R. § 550.112(f)(1). FBI agents may only be paid for scheduled overtime
hours beyond the first 10 hours on a regularly scheduled workday (8 hours
plus 2 hours for availability pay, usually on Monday through Friday), plus all
scheduled overtime hours on off days such as Saturday or Sunday. Id.

       The FBI’s MAOP imposes additional requirements for approving
scheduled overtime for Special Agents who are paid availability pay. The
scheduled overtime request must “contain an explanation of why the use of
unscheduled work compensated by Availability Pay (AVP) and/or increased
staffing to cover the required work assignment is insufficient.” The FBI’s
Finance Division also must prepare a financial analysis that considers “the
number of [Special Agents], the grades of the personnel to be assigned, the
duty station of record of the personnel to be scheduled/assigned, and the
expected duration of the assignment.” MAOP, Pt. 1, § 8-2.1.1.

      In addition, the FBI is required to establish a written schedule that must
be “communicated to the affected employee(s) in advance of the administrative
workweek in which the overtime is to be performed.” MAOP, Pt. 1, § 8-

       8  The writing requirement is not merely an administrative directive, but rather a
substantive requirement. Doe v. United States, 372 F. 3d 1347, 1357-8. “[A] federal employee
cannot recover overtime pay under FEPA without prior written authorization or approval of the
overtime work. That the employing agency may have induced the employee to work overtime is
not enough.” Corrigan v. United States, 68 Fed. Cl. 589, 596 (2005) (emphasis supplied), citing,
Doe, 372 F. 3d at 1364. “The writing requirement also serves an important purpose of the
statute – to control the government’s liability for overtime.” Doe, 372 F. 3d at 1361. Although
Doe involved an overtime claim by DOJ attorneys, it has been applied to other federal
employees. Bishop v. United States, 77 Fed. Cl. 470 (2007).




                                              11
2.1.1(4)(b). If the FBI fails to prepare and present a written schedule, it is not
allowed to pay overtime and instead is required to credit the Special Agent with
availability pay time. 9 Furthermore, if the agent works hours that are not part
of his official written overtime schedule, he or she can be credited with
availability pay hours but cannot be paid overtime. MAOP, Pt. 1, § 8-2.1.1
(7). 10

      The MAOP provides examples of the consequences of failing to provide a
written overtime schedule. In one example, a Special Agent is asked on a
Monday to perform 4 additional hours on Tuesday. Because the agent “was
not scheduled for the additional hours in advance of the administrative
workweek, the [agent] will not receive any scheduled overtime compensation.
Instead, the entire period of extra duty on Tuesday will be credited as AVP
hours.” MAOP, Pt. 1, § 8-2.1.1 (4).

       Furthermore, the specific hours that have been scheduled ahead of time
are the only hours that can be compensated as overtime. The MAOP gives the
following example of this point. A Special Agent is given a written schedule
calling for him to work overtime on certain days and times, but not on
Tuesday. If the agent works an additional hour on Tuesday, because “the
additional one hour was not scheduled in advance, the unscheduled hour
cannot be claimed as overtime. The hour may be added to the two hours of
AVP [availability pay] for a total of three hours of AVP.” MAOP, Pt. 1, § 8-2.1.1
(7).

       In addition to the requirement for work schedules found in the MAOP,
there is a more generally applicable federal regulation that requires agencies to
establish work schedules for employees “in advance of the administrative
workweek over periods of not less than 1 week.” 5 CFR § 610.121(a)(1). 11 The
agency “shall schedule an employee’s regularly scheduled administrative
workweek so that it corresponds with the employee’s actual work
requirements.” 5 CFR § 610.121(b)(1). The agency is also under an obligation
to reschedule an employee’s regularly scheduled workweek if it “knows in
advance of an administrative workweek that the specific days and/or hours of

       9  FBI policy states that “the schedule must be established and communicated in
writing” to the Special Agents at the beginning of the workweek, “OTHERWISE, SA
PERSONNEL WOULD NOT BE ELIGIBLE FOR COMPENSATION FOR ANY APPROVED SOT
PERFORMED IN THE FOLLOWING SEVEN-DAY PERIOD.” MAOP, Pt. 1, § 8-2.1.1 (4)(b)
(capitalization in original).
       10 We are not aware of any regulation or policy that exempts service in Iraq or

Afghanistan from these requirements.
       11 An exception exists where “the head of an agency determines that the agency would
be seriously handicapped in carrying out its functions or that costs would be substantially
increased.” Id.




                                              12
a day actually required of an employee in that administrate workweek will differ
from those required in the current administrative workweek.” 5 CFR §
610.121(b)(2).

       C.      Work Activities Compensable with Overtime Pay

       Both FEPA and its implementing regulations require overtime pay for
excess “hours of work” but do not define that term. Instead, the regulations
describe whether certain activities may be included when computing overtime
work. 12 The FEPA regulations provide that an employee shall be paid for every
minute of regular overtime work for “principal activities,” defined as “the
activities that an employee is employed to perform.” 5 C.F.R. § 550.112(a).
The regulation also permits compensation for certain “preshift” (preparatory)
and “postshift” (concluding) activities if they are “indispensable to the
performance of the principal activities.” 5 C.F.R. § 550.112(b).

               1.     Time spent standing by or in on-call status

      Federal employees can be paid for time they spend standing by (waiting
for work, but not actually working), only if:

            for work-related reasons, the employee is restricted by official order to
            a designated post and is assigned to be in a state of readiness to
            perform work with limitations on the employee’s activities so
            substantial that the employee cannot use the time effectively for his or
            her own purposes.

5 C.F.R. § 550.112(k)(1). Employees do not get paid for standing by if “the
restriction is a natural result of geographic isolation or the fact that the
employee resides on the agency’s premises.” 5 C.F.R. § 550.112(k)(2). For
example, the employee is not paid for waiting or stand-by time if the
restriction is caused by his assignment to “a remote wildland area or on a
ship.” Id.

      Similarly, an employee who is off duty but in an “on-call status” does not
get paid for work if the employee is allowed to leave a telephone number or

       12  Similarly the Fair Labor Standards Act (FLSA) contains no definition of work, but
uses and defines the term “employ” to mean “to suffer or permit to work.” It also contains a
partial definition of “hours worked” in the form of a limited exception for clothes-changing and
wash-up time. The FLSA regulations define “hours of work” generally to mean “all time spent
by an employee performing an activity for the benefit of an agency and under the control of
direction of the agency.” 5 C.F.R. 551.104. The regulations caution that whether “time is
credited as hours of work is determined by considering many factors,” including various other
regulations, provisions of law, Comptroller General decisions, OPM policy guidance, and agency
policy and regulations. Id.




                                              13
carry an “electronic device for the purpose of being contacted, even though the
employee is required to remain within a reasonable call-back radius.” 5 C.F.R.
§ 550.112(l)(1).

       Although standby pay is highly restricted for non-agent employees, as
discussed above, it is essentially prohibited for agents. As noted above,
criminal investigators such as FBI agents receive availability pay in part for the
purpose of ensuring their availability for unscheduled duty based on the needs
of the agency. 5 U.S.C. § 5545(d). Thus, availability pay for agents serves the
same purpose of standby pay for other employees. Federal regulations
accordingly preclude the payment of “standby duty pay” to criminal
investigators receiving availability pay. 5 C.F.R. § 550.186. Other FBI
employees may receive standby pay depending on the degree to which their
activities are restricted.

                2.      Time spent sleeping and eating

       In general, federal employees are not paid for “time available for, or
spent, sleeping and eating . . . even where the employee is required to be on the
employer's premises, [unless] substantial labor is performed in the time set
aside for sleeping and eating” or unless the sleeping or eating is “interrupted by
a call to duty.” 5 C.F.R. § 550.112(m)(1). 13 Federal employees are not paid for
sleep time, even if it is disrupted. 14

      FBI policy allows employees to take a lunch break, but the FBI does not
pay them for that time. MAOP, Pt. 1, § 20-22(1) and Part 2, § 1-2.4.1. 15 The
policy makes no distinction between domestic and overseas lunch breaks. The
FBI has no specific policy about sleep time.




        13 See also Rapp v. United States, 340 F.2d 635, 642-643 (Ct.Cl. 1964), implied

overruling on other grounds recognized by, Doe, 372 F.3d 1347; See also Armstrong v. United
States, 144 Ct.Cl. 659 (1959) (sleeping and eating time are not “hours of employment” and thus
not compensable overtime where employees “were very rarely interrupted in their normal
sleeping and eating time,” as “these are pursuits of a purely private nature which would
presumably occupy the employees' time whether they were on duty or not . . .”).
       14 See Rapp, 340 F.2d 635, 643 (“The fact that plaintiffs’ sleep may have been broken

occasionally by the clattering of the communication equipment would not prevent the
deduction of sleeping time” from the overtime hours claimed), citing, Avary v. United States,
141 Ct. Cl. 577, 579 (1958) (plaintiffs’ claim for overtime on the grounds that “their sleep was
broken by the noise of trains and airplanes, is untenable.”)
       15   See also MAOP, Pt. 1, § 8-2.1.1(7).




                                                  14
               3.      Time spent working out

      The FBI’s MAOP allows Special Agents to be paid for three 1-hour
exercise periods a week. MAOP, Pt. 1, 24-7. However, it explicitly states that
overtime cannot be paid for exercise periods. MAOP, Pt. 1, 24-7(2). Therefore,
paid exercise must take place during regular work hours.

               4.      Time spent commuting

        Generally, federal employees are not paid for the time spent commuting
from home to work. FEPA provides that “time spent in a travel status away
from the official-duty station of an employee is not hours of employment”
compensable as overtime unless certain limited conditions are satisfied. 5
U.S.C. §5542(b)(2). 16 Barth v. United States, 568 F.2d 1329, 1331 (Ct. Cl.
1978) held that this provision of FEPA codifies the principle that “travel which
has no purpose other than to transport an employee to and from the place
where he is to perform his duties is not work and is not compensable as
overtime” (citations omitted). Mossbauer v. United States, 541 F. 2d 823, 825
(9th Cir. 1976), applied this principle to an employee who was required to live in
government quarters away from home during the workweek in order to
facilitate his presence at a remote worksite. The court held that “[i]f [the
employee’s] travel from his quarters is analogous to a suburban dweller’s daily
commuting, the time spent in such travel is not includable in [the employee’s]
‘hours of employment.’” (Footnote and citations omitted.)

      The FBI’s MAOP states that “normal travel to and from work is not
compensable.” MAOP, Pt. 1, § 8-2.1(4)(c). The MAOP also forbids Special
Agents from receiving availability pay credit for time commuting to and from
the “place of business,” even if the Special Agent is driving a government
vehicle. MAOP Pt. 1, § 8-1.8.

       D.      Changing the Regular Workweek

      Although most FBI employees have a basic workweek from Monday
through Friday, the FBI functions 7 days a week and therefore requires some
employees to work a different basic shift, which may include Sunday. Under 5
C.F.R. §§ 550.103 and 550.171, such employees are entitled to a 25 percent

       16  Under the statutory exceptions, time spent in a travel status is compensable if the
travel: (1) is within the days and hours of the regularly scheduled administrative workweek of
the employee, including regularly scheduled overtime hours; (2) involves the performance of
actual work while traveling; (3) is incident to travel that involves the performance of work; (4) is
carried out under arduous conditions; or (5) results from an event which could not be
scheduled or controlled administratively. 5 U.S.C. § 5542(b)(2). The FEPA regulations likewise
provide that “travel from home to work and vice versa is not hours of work.” 5 C.F.R. §
550.112(j).”




                                                15
premium for up to 8 scheduled non-overtime hours worked on Sunday.
However, if the employee’s basic workweek is changed solely at the request of
and for the benefit of the employee, then the employee does not qualify for
extra Sunday pay. MAOP, Part I, § 20-8(2).




                                      16
                           CHAPTER THREE:
                     BACKGROUND ON THE FBI IN IRAQ

I.    Deployments to Iraq

       According to FBI officials and documents we reviewed, the FBI started
deploying its employees to Iraq in March 2003 to collect and analyze
information that could help protect against terrorist threats in the United
States and against U.S. personnel or interests overseas. FBI officials and
documents stated that by sending its employees to Iraq, the FBI could obtain
important information faster, avoiding the need to wait for information to flow
through the military and other agencies before reaching the FBI. The FBI also
attempted to prevent terrorist acts within Iraq by, among other means,
processing bomb and other crime scenes in Iraq and by working with Iraqi
police officers to investigate Iraqi crimes. In addition, the FBI helped
investigate Saddam Hussein and his associates for crimes against the Iraqi
people.

      Initially, the FBI sent 34 employees to Iraq for deployments varying in
duration. Subsequently, the FBI adopted a standard deployment period of 3
months. From March 2003 to July 2008, the FBI had sent a total of
approximately 1,150 employees to Iraq, some of whom served multiple
deployments.

     All of these FBI employees volunteered to serve in Iraq. Generally, they
came from FBI field offices located throughout the United States.


II.   Employee Assignments

      Jobs assigned to FBI employees in Iraq changed over time in response to
changing conditions, but generally fell into one of three categories:
interrogations, task forces, or training.

      A. Interrogations

      A substantial number of FBI employees interrogated detainees held at
various detention facilities in Iraq. Initially, the interrogations were mostly at
the Abu Ghraib prison not far from Baghdad. Over time, the sites for
interrogations changed. Currently, the majority of FBI interrogations take
place at a military facility north of Baghdad and at another facility within the
borders of the Baghdad International Airport (BIAP).




                                        17
       B.      Task Forces

      Another large group of FBI employees worked on one of several task
forces in Iraq. The major task forces included:

           The Regime Crimes Liaison Office (RCLO) Task Force, which was
            responsible for finding and assembling the evidence necessary to try
            Saddam Hussein and his associates. Most of the FBI employees
            assigned to the RCLO lived in Baghdad, where they interviewed
            witnesses and assembled evidence. A few of them lived in Doha,
            Qatar (about 400 miles south of Iraq), where they were responsible
            for, among other things, finding relevant documents among the
            millions of records recovered from Iraqi government offices following
            the fall of Saddam’s government and stored in Doha.

           The Major Crimes Task Force (MCTF), which provided training,
            mentoring, and investigative assistance to a select group of Iraq police
            responsible for ongoing criminal investigations, including major
            kidnappings and other crimes.

           The Law and Order Task Force (LAOTF), which trained Iraqi
            prosecutors, judges, and police officers to institute a fair system of
            justice.

           The Hostage Working Group (HWG), which investigated kidnappings,
            generally of American citizens in Iraq.

           The Combined Explosives Exploitation Cell (CEXC), which
            investigated and attempted to prevent bombings.

       C.      Training

       A smaller group of FBI employees taught a variety of courses to Iraqi
police on subjects ranging from investigating kidnappings to running a
counterterrorism operation. 17 The FBI trainers generally stayed in Iraq for the
duration of the courses (typically a few weeks) rather than for 90 days. These
employees were coordinated by the FBI’s International Training Assistance Unit
(ITAU) rather than CTD.


       17 The general training missions differed from the MCTF and LAOTF missions. The
employees working on the MCTF and LAOTF provided training to Iraqi counterparts and also
worked in the field with the Iraqis on pending cases. The trainers did not work on cases but
instead focused exclusively on providing classroom instruction to Iraqi law enforcement
officers.




                                             18
       D.   Number of Employees

       The number of employees assigned to each type of job tended to change
with time. Approximately 30 to 40 employees at a time were assigned to
interrogations and related tasks through most of 2007. The number of
employees assigned to the task forces varied even more. For example, in the
spring and early summer of 2005, when prosecutors were busy preparing for
the Saddam Hussein trials, 13 FBI employees in Baghdad were assigned to the
RCLO. In contrast, by early 2007 when the trials were further along, nine FBI
employees were assigned to RCLO, and by the spring and early summer of
2007 there were none. As various task forces were created, emphasized, or
deemphasized over the years, there were numerous changes in both the
number of FBI employees assigned and the tasks that were delegated to them.
The number of trainers also varied widely. At times, there were no trainers in
Iraq; at other times, there were as many as eight.

       E.   Extra Assignments

       In addition to work on their main assignments, many FBI employees
were given extra assignments, such as maintaining the building they lived in,
getting gas for vehicles, and providing security. For example, the FBI’s
Baghdad Operations Center was an older, deteriorating building that required
constant attention. At the Baghdad Operations Center, one of the extra jobs
involved escorting the sewage trucks that periodically emptied the sewage
holding tank outside the building. Another extra job involved escorting the
various repairmen who came to repair one or more problems that arose inside
the building. Security needs also required FBI employees to answer
telephones, monitor closed-circuit TV monitors, and generally maintain
communications either for a 12-hour overnight shift or a 12-hour daytime
shift. Although witnesses said they did not remember how often they had been
assigned these additional security duties, two schedules that we saw showed
employees scheduled to either a daytime or overnight shift about three times
over a 6-week period.


III.   Living Arrangements for FBI Employees in Iraq

      Although the locations and conditions within them changed over time,
most FBI employees in Iraq lived in the Green (or International) Zone in
Baghdad, the Baghdad International Airport (BIAP), or various other military
bases. In addition, a few FBI employees lived in Doha.

       A.   Green Zone

      The Green Zone is a large gated neighborhood in the middle of Baghdad
that was formerly Saddam Hussein’s private compound but since 2003 has


                                      19
been used in part by the U.S. government for its operations. Within the Green
Zone is a building known as the Baghdad Operations Center, which is used
exclusively by the FBI. Most FBI employees stationed in the Green Zone
worked in the Baghdad Operations Center, which has office space, small
sleeping rooms, a communications room, a small kitchen, a small workout
room, and basic laundry facilities. Other employees did most or all of their
work at other buildings within the Green Zone, such as the U.S. Embassy,
which is a few minutes away by car.

      When FBI employees were not working, there were few opportunities for
recreation. The Baghdad Operations Center had a few small televisions that
could play DVDs, and there was a larger TV-DVD at a building near the
Baghdad Operations Center that was periodically used for movies. The Green
Zone also contained a cafeteria, a post exchange (PX), a gymnasium (separate
from the workout room at the Baghdad Operations Center), and a pool, all of
which were used at various times by FBI employees. To get to each of these
other facilities, employees generally used one of several cars available at the
Baghdad Operations Center.

      B.    Baghdad International Airport (BIAP)

      The BIAP is a large, gated complex that includes not only the Baghdad
airport but also several military facilities. Initially, the employees stationed at
the BIAP lived in tents, but later they generally slept in a building or trailers
located within a military facility. Showers and bathrooms were located in other
nearby trailers.

       Many of those living at the military facility commuted daily to work,
generally to one or more nearby military facilities for interrogations, while
others worked with soldiers who traveled outside of the BIAP. The BIAP has
several cafeterias, a workout facility, a pool, and a PX that employees living at
the military facility could use. Because mortars and other explosives
sometimes detonated in the Green Zone and the BIAP, it could be dangerous to
travel through either location. Accordingly, some FBI employees did not leave
the Baghdad Operations Center or the military facility, unless required.

      C.    Other Iraq locations

       The employees who worked at the other locations in Baghdad and Iraq,
mostly military bases, had a variety of living arrangements. Some lived in
tents, others in temporary or permanent buildings. Some bases had more
recreational facilities than others. Some employees worked within the bases,
while others worked mostly outside the bases.




                                        20
       D.     Doha, Qatar

      The FBI employees stationed in Doha reported to the On-Scene
Commander (OSC) in Iraq. Most of the employees assigned to work in Doha
commuted daily to a U.S. military base. The base included a cafeteria, PX,
movie theater, workout facility, and pool and tennis courts, which were
available for use by FBI employees.


IV.    The FBI’s Command Structure in Iraq

      Nearly all FBI employees in Iraq were under the command of the FBI’s
Counterterrorism Division (CTD). The CTD’s top supervisor in Iraq, the On-
Scene Commander, lived and worked in the Green Zone. The On-Scene
Commander supervised almost all of the FBI employees who worked and lived
in the other locations in Iraq, but also any ATF, DEA, and USMS employees
who were assigned to the RCLO, MCTF, and other similar task forces. 18


V.     Time Reporting Procedures in Iraq

       Unlike FBI employees in the United States, FBI employees in Iraq were
not required to sign their own time and attendance (T & A) forms. Instead,
their forms were completed and filed by a payroll clerk in their home office in
the United States without their signature. Until recently, the supervisors in
their home offices continued to sign and certify the employees’ T & A forms,
even though those supervisors were not in Iraq and consequently had no direct
knowledge that the hours they were “certifying” were actually the hours that
the employees had worked.

      We found that some employees in Iraq contacted their T & A clerks
regularly to report their hours, while others told their T & A clerks, before
leaving the United States, that they should routinely enter 16 hours of pay for
them, 7 days a week, unless instructed otherwise.



       18 In addition to the employees assigned to the CTD, a smaller group of FBI employees
were assigned to the Legal Attaché’s (Legat) office, which worked with the U.S. Embassy in
Baghdad. Those employees were allowed to claim no more than 72 hours per week (12 hours
per day, 6 days per week). In addition, they were told that they had to keep accurate track of
the hours that they worked and that they had to have their supervisors in Iraq – the ones who
worked with them and knew what hours they were actually working – approve their T & A
forms before they could be sent to the United States for entry in the payroll system.
Accordingly, we did not focus our review on these employees.




                                              21
                             CHAPTER FOUR:
                  FBI MEMORANDA, GUIDANCE, AND TRAINING
                        REGARDING OVERTIME IN IRAQ

       We found that the FBI paid overtime to its employees in Iraq since the
first deployments in March 2003. This chapter describes the history of the
memoranda issued by the FBI purporting to authorize such payments, and the
guidance and training provided to FBI employees regarding how to report their
time.


I.    CTD Memoranda

      Responsibility for pay procedures in Iraq was assigned to the
Counterterrorism Division (CTD) in FBI Headquarters in Washington. CTD
management prepared and issued several memoranda and e-mails purporting
to authorize the payment of overtime to FBI employees in Iraq and instructing
employees on how to claim such overtime.

      A.       The 2003 Overtime Memorandum

      The first CTD document issued on this topic was a 3-page memorandum
dated March 18, 2003, from FBI Deputy Director Bruce Gebhardt and several
other officials in the CTD to the Director’s Office (2003 Overtime
Memorandum). It requested approval of overtime for FBI employees working
“in support of the Iraqi conflict.” 19 On its face, the 2003 Overtime
Memorandum applied not only to employees in Iraq, but also to those in the
United States working on Iraq matters.

       The memorandum stated that the CTD was requesting the authorization
of scheduled overtime and a waiver of a bi-weekly pay cap that might otherwise
limit compensation to FBI employees receiving premium pay in connection with
the Iraq mission. It stated:

      To provide maximum compensation permissible under law and
      regulation, it is recommended that [scheduled overtime] be approved for
      SA [Special Agent] and support personnel directly assisting with Iraqi
      conflict efforts. Approval of [scheduled overtime] does not negate the
      requirement for SAs to complete two hours of availability pay (AVP) on
      each of their regularly scheduled work days (typically Monday through
      Friday).



      19   A copy of the 2003 Overtime Memorandum is contained in Appendix A to this report.




                                             22
      The memorandum stated that scheduled overtime will be “discontinued
at such time as employees may be scheduled in a manner which lessens the
need for unusual amounts of overtime or other forms of premium pay.”

      The 2003 memorandum did not set forth a specific work schedule for
employees working in support of the Iraq effort or indicate the number of hours
per day or days per week that were being approved for overtime pay. Nor did it
contain the financial or manpower analyses required under the MAOP before
overtime can be authorized.

      The copy of the memorandum that we received stated that it was
approved by FBI Deputy Director Gebhardt and several other officials in the
CTD. Although the document contained blank spaces for an official’s initials to
indicate whether its recommendations had been approved or disapproved, we
were unable to locate a copy bearing any such initials, and the document was
never “uploaded” into the FBI computer network for broad dissemination.
However, subsequent FBI memoranda stated that Deputy Director Gebhardt
signed the memorandum and authorized scheduled overtime in connection
with the Iraq mission on March 18 or March 23, 2003. 20 We found no evidence
that the FBI’s Office of General Counsel (OGC) or any other FBI attorneys
drafted the memorandum or reviewed it for compliance with relevant laws and
regulations.

      B.       The Administrative Services Division Memorandum

       On March 24, 2003, 6 days after the date of the 2003 Overtime
Memorandum, a unit within the FBI’s Administrative Services Division (ASD)
issued a follow-up memorandum (ASD Memorandum), a copy of which is
attached to this report as Appendix B. 21 Nine FBI officials are listed as having
approved the ASD Memorandum, including Deputy Director Gebhardt and
officials from CTD and ASD. The ASD Memorandum stated that its purpose
was to:

      Advise[] that scheduled overtime (SOT) was approved for Special Agents
      (SAs) and support employees performing work in command posts in
      connection with the [Iraq conflict]. Other important compensation



       20 Thomas J. Harrington, who was Deputy Assistant Director of the CTD in March 2003

and who appears on the memorandum as one of the approving officials, told us that he had
never seen the 2003 memorandum before our interview. However, Harrington said that
overtime for employees in Iraq had definitely been approved by that time.
      21   The ASD is now known as the Human Resources Division.




                                           23
       information is provided herein. This communication supplements an e-
       mail to all offices transmitted on 03/19/2003. 22

      The ASD Memorandum stated that Deputy Director Gebhardt had
approved scheduled overtime for employees assigned to work on the Iraq
mission “at command posts.” According to one of the FBI employees listed on
the memorandum as a contact, “command posts” were 24-hour facilities set up
in FBI field offices. She said that FBI workplaces later established in Iraq were
also considered “command posts” for purposes of the ASD Memorandum.

       The ASD Memorandum stated that although overtime had already been
approved, SAs could not begin claiming scheduled overtime until March 23,
2003 – a Sunday. This delay was necessary, the ASD Memorandum explained,
because “to claim SOT, a written schedule must be formulated and
communicated to SAs in advance of the administrative workweek.” In other
words, because the week beginning on Sunday, March 23, 2003, was the first
full workweek after approval of scheduled overtime, it was the first date on
which SAs could claim scheduled overtime. Prior to that, the SAs would not
have received a written schedule in advance of the workweek.

      The ASD Memorandum stated that employees who were not SAs could
begin collecting scheduled overtime immediately, because the CTD was not
required to give non-SAs a written schedule in advance of the workweek.

      To illustrate several points about the use of overtime, the memorandum
used a hypothetical workweek comprised of 12-hours shifts over a 5-day week.
This hypothetical workweek contrasted with the 16-hour, 7-day workweeks
that FBI employees in Iraq soon began claiming.

      The ASD Memorandum also discussed three other categories of premium
pay that were available to employees assigned to the Iraq matter: night pay for
regularly scheduled work performed between the hours of 6:00 p.m. and 6:00
a.m., Sunday pay, and holiday pay.

       C.     The 2005 Overtime Memorandum

      We obtained an FBI memorandum dated May 17, 2005 (2005 Overtime
Memorandum) that purported to “set forth the policy of overtime (OT) pay” for
employees serving in both Iraq and Afghanistan. However, it is not clear
whether this memorandum was officially adopted as FBI policy. The 2005
Overtime Memorandum, appended to this report as Appendix C, was drafted by

       22The FBI was unable to provide us the March 19 “e-mail to all offices” referenced in
the ASD Memorandum. We believe such an e-mail may have summarized or attached the
March 2003 memorandum discussed above.




                                              24
the Chief of the CTD’s Military Liaison Detainee Unit (MLDU) and another
employee in MLDU. MLDU was responsible for providing logistical, training,
and equipment support for FBI employees in Iraq.

      The MLDU chief told us that the 2005 Overtime Memorandum was
drafted in response to questions from CTD managers about issues such as
which employees were eligible for what sorts of overtime pay, and:

       How do you separate daily work? If I need to put on my bulletproof vest
       to go to the restroom, at what point . . . [am I] off duty and what time am
       I on duty? A mortar attack comes in and everybody has to scramble . . .
       Do I sign in?

       The MLDU Chief told us that his supervisors in the CTD asked him to
write the memorandum. 23 While the MLDU Chief could not remember the
specific instructions he received, he said that his supervisors wanted to know
“what are we doing on overtime; how much is it costing; how are we controlling
it?”

      The resulting 2005 Overtime Memorandum began by stating that the
2003 Overtime Memorandum approved scheduled overtime because employees
were required to work “in excess of the normal eight hour” day, with the
purpose of providing them “maximum compensation permissible under law and
regulation.”

       In a section labeled “Analysis,” the 2005 Overtime Memorandum noted
that 400 FBI employees had gone to Iraq so far, and that employees served in
90-day deployments during which they “usually work [16-hour shifts] to
accommodate the unusual work environment, the military’s 12-hour shifts and
the eight hour time difference between Iraq and the eastern United States.” 24

      In addition, the 2005 memorandum stated, “in order to ensure the
proper supervisory oversight, . . . the On-Scene Commanders in Iraq and



       23  The MLDU Chief said he could not remember exactly which supervisor assigned the
memorandum. The memorandum lists several approving CTD officials above the MLDU Chief,
including the Assistant Chief, Operational Response Section; the Chief, Operational Response
Section; the Deputy Assistant Director, CTD; the Assistant Director, CTD; and the Executive
Assistant Director, CTD.
       24 The memorandum purported to supply an “Analysis” of the costs of overtime.
However, as detailed in Section II of Chapter Five, the calculations in the memorandum
contained mathematical errors and assumptions that are internally inconsistent and at
variance with law and regulation. We believe this memorandum cannot be relied upon as an
accurate indication of overtime costs for FBI employees in Iraq.




                                             25
Afghanistan will pre-approve work schedules” for employees in Iraq, who will
“continue to TURK hours worked up to 16 hours in a 24-hour day.” 25

      Lastly, the memorandum required supervisors in Washington, D.C., to
“review, on a quarterly basis, the performance and output of these dedicated
personnel to evaluate the quality and quantity” of their work.

      The MLDU Chief said that he never saw a signed version of the 2005
Overtime Memorandum and that, to his knowledge, it was never officially
approved. 26

      T.J. Harrington was the Deputy Assistant Director of CTD when the 2005
Overtime Memorandum was written. He told us he thought the memorandum
was officially signed and approved, but he was not certain. He said he was not
aware of any involvement by the FBI’s Office of General Counsel or Human
Resources Division in creating or reviewing the memorandum. Harrington said
he did not know whether the quarterly reviews mandated in the memorandum
were ever performed.

       D.     The 2007 Overtime E-mail

      On November 2, 2007, soon after the FBI Inspection Division completed a
preliminary review of T & A data related to Iraq, and shortly before this
investigation began, Kevin L. Perkins, Assistant Director for the FBI’s
Inspection Division, sent an e-mail to CTD management directing an
“immediate policy change” in the way overtime payments for FBI personnel in
Iraq were approved. This e-mail is attached as Appendix D. The e-mail stated,
“Right now each person in Iraq forwards their T & A back to their home office of
assignment for approval. No check/balance/oversight occurs in Iraq.” The
new policy required On-Scene Commanders or their designees to approve any
overtime claims submitted from Iraq before they are paid.

       E.     The March 2008 Overtime Memorandum

       A more formal policy change for Iraq and Afghanistan was announced in
a 4-page memorandum written by CTD officials and dated March 5, 2008
(March 2008 Overtime Memorandum), a copy of which is attached as Appendix
E. 27 The March 2008 Overtime Memorandum was issued several months after

        25 TURK is the acronym for “time utilization record keeping” that many FBI employees

use to refer to the system for recording the hours worked each pay period.
       26However, as detailed in Chapter Seven, the MLDU chief did initiate some audits of
time worked by FBI agents in Afghanistan.
       27  The memorandum was approved by Arthur M. Cummings, II, Executive Assistant
Director for Counterterrorism and Counterintelligence; Joseph Billy, Jr., then-Assistant
(Cont’d.)


                                             26
this investigation was initiated. It appears to have been prepared in response
to Assistant Director Perkins’ November 2007 e-mail, which also transmitted
“instructions” for the Human Resources Division and the Counterterrorism
Division. The instructions, prepared by the Inspection Division, stated that the
CTD would “enhance” the Iraq Overtime Policy to include:

               Requirement that T & A forms be prepared contemporaneously and
                approved by immediate supervisors in Iraq;

               Specific guidance on the definition of “work”;

               Coordination between CTD and other FBI Divisions to ensure
                consistent application of overtime policy;

               Adjustment to Afghanistan Policy to be consistent; and

               Procedures to increase managerial oversight and documentation to
                justify overtime expenditures.

      The March 2008 Overtime Memorandum begins (as did the 2005
Overtime Memorandum) by referring to the 2003 Overtime Memorandum that
purportedly approved scheduled overtime. The March 2008 Memorandum
stated that employees in Iraq and Afghanistan “are scheduled to work seven
days a week [for specific 16-hour shifts] 28 to accommodate the unusual work
environment, the military’s 12-hour shifts, and the eight hour time difference
between Iraq and the eastern United States.” This is the only document that
the FBI has provided that explicitly states that FBI employees in Iraq were
“scheduled” to work these hours, although the 2005 memorandum stated that
FBI employees “usually” worked these hours.

       The March 2008 Overtime Memorandum also provided guidance on what
activities could be reported as work. It stated that:

Director of the CTD; James W. McJunkin, Deputy Assistant Director of the CTD; and James H.
Robertson, Chief of the CTD’s International Terrorism Operations Section II. The front page of
the March 2008 Overtime Memorandum is dated March 5, 2008, but it also bears a
handwritten notation indicating that it was approved on March 21, 2008. However,
subsequent pages of the Memorandum bear the date January 25, 2008, and subsequent
references to the Memorandum in FBI documents sometimes refer to this date. For
consistency, in this report we refer to this memorandum as the March 2008 Overtime
Memorandum.
       28  The FBI considers the specific starting and ending times for the workday schedule
contained in this Memorandum to be law enforcement sensitive. We therefore refer to this
schedule as the “generic 16-hour schedule.” When we use that term in this report we are
referring to the schedule in the March 2008 Overtime Memorandum, which has a precise
starting time and a precise ending time 16 hours later.




                                              27
      [A]ctivities conducted during the workday related to operational
      readiness, such as eating, exercising, training, and the preparation
      of gear and equipment for the following workday, are considered on
      the clock. Activities considered rest and relaxation that may be
      conducive to general fitness although not directly related to
      operational readiness are excluded and considered off the clock.

The March 2008 Overtime Memorandum further stated:

      The SOT is the maximum compensation permissible under law and
      regulation. The [work week] starts on Monday and Agent
      personnel are authorized compensation for SOT (after normal
      workweek – 50 hours); 8 hours of Sunday pay; Holiday Pay (when
      applicable); and 5 hours Night Differential.

      Next, the Memorandum repeated the requirement (contained in the 2005
Overtime Memorandum) that required On-Scene Commanders to pre-approve
work schedules. The March 2008 memorandum also slightly changed the
procedures for approving work hours:

      All personnel will be required to document the actual hours
      worked each day and will be appropriately compensated.
      Depending on the circumstances of the daily mission, the actual
      hours worked and the resultant compensation may be less or more
      than the approved scheduled 16 hour work day. Additionally, all
      personnel will have their work time approved in the interim by the
      On-Scene Commander or his/her designee.

      Finally, the March 2008 Overtime Memorandum repeated the
requirement (first contained in the 2005 Memorandum) that Washington, D.C.,
supervisors must audit work hours claimed. “Any pattern of hours claimed
indicative of potential abuse will be thoroughly reviewed and the current policy
reassessed,” the memorandum concluded.


II.   The “Pay Sheets”

     In addition to the e-mails and memoranda discussed above, the FBI
addressed the issue of overtime in a series of “pay sheets” that instructed
employees on how to report their time.

      The first employees sent to Iraq in the spring of 2003 were unsure about
how many hours a day they would be allowed to claim as overtime. According
to one employee, the first group was initially allowed to claim only 2 hours of
overtime a day, even though they were working many more hours than that.
However, the employee said they were soon permitted to claim up to 16 total


                                       28
hours a day (6 hours of overtime on weekdays and 16 on weekend days). CTD
administrators told us that even after claiming 16 hours each day became
standard practice, employees continued to call and e-mail with questions.

       To answer the employees’ questions, a supervisor in the Rapid
Deployment Logistics Unit (RDLU) conferred with FBI payroll and finance
offices and, based on that input, drafted a sheet showing employees how to fill
out the T & A forms and what hours they could charge daily. 29 The result was
a 1-page sheet – entitled Iraq Work Schedule Pay Authorization (“pay sheet”) –
that purported to show what hours could be claimed and how they should be
accounted for. The RDLU supervisor told us she was unsure when she had
drafted the pay sheet, but estimated that it may have been as early as the fall
of 2003. The earliest version of the pay sheet that we were able to find was
contained in a pre-deployment handbook that was distributed in the fall of
2005. The pay sheet, which was included in almost all of the pre-deployment
handbooks given to all employees before they left for Iraq, became the primary
authority on which employees relied when filling out their T & A forms.

      The pay sheet, a copy of which is appended to this report as Appendix F,
“assumed” that everyone in Iraq was working a 16-hour day. Based on that
assumption, the pay sheet contained a sample weekly schedule reflecting those
hours and listing Sunday as a regular work day. The supervisor who drafted
the pay sheet said the FBI finance section told her to use 16 hours as a typical
day because early in the Iraq mission “most of them [employees in Iraq] were
working at least 16 hours a day.”

       By April 2006 the pay sheet had been modified slightly to include an
explicit instruction that Iraq-bound employees should tell their payroll clerks
that they would be working the generic 16-hour schedule, 7 days a week. In
addition, the pay sheet instructed employees to give the pay sheet to their
payroll clerks, who would use the information to enter their payroll data. For
consistency, the pay sheet instructed all employees in Iraq from the same field
office to have one payroll clerk within that office complete the T & A forms for
all employees in Iraq.

      The early versions of the pay sheet did not tell employees what to do if
they did not work 16 hours on any particular day. However, by April 2006 the
pay sheet was modified to add cautionary language that the 16-hour, 7-day
schedule is the maximum allowed and that “if you do not work 16 hours do not
claim it.” 30

       29  The RDLU is not part of CTD but was nevertheless responsible, among other things,
for coordinating the logistics needed to send employees to Iraq.
       30 The pay sheets distributed to FBI employees slated to go to Iraq changed over time.
We were unable to find copies of all versions of the pay sheets. The earliest version that we
(Cont’d.)


                                              29
      Starting a year later in April 2007, the pay sheet was slightly modified
again, this time by putting that same information in bold font so that it read:
“if you do not work 16 hours – do not claim it – claim only what you
work.” 31

      Like most of the overtime memoranda, the pay sheets did not include
information regarding what activities were compensable as “work” in Iraq.


III.   Pre-Deployment Training

      The FBI provided pre-deployment training to many employees who were
sent to Iraq, regarding a variety of issues pertinent to their assignments.
However, little or nothing was said during the pre-deployment training sessions
about what constituted “work” in Iraq, according to the FBI trainers who led
those sessions.

      During this training, Iraq-bound employees occasionally asked what they
could count as “work” once they arrived overseas. One pre-deployment trainer
told us that, in his opinion, an employee was “working” in Iraq whenever he
was awake. However, the trainer said he did not voice his opinion to others.
Instead, he said he told his classes that they should:

       Claim what you work. If you work 16 hours, that’s what you
       claim. If you . . . work 24 hours – and there will be times when
       guys will work 24 hours, 28 hours straight – that’s what you claim.
       If you work 12 hours, claim what you work.

      That trainer told us that he referred anyone who asked additional
questions to an internal FBI website (which, based on our review, does not
contain any information about what counts as “work”) or to the FBI’s Finance
Division.

       Another trainer said that during her classes she spent “at most” 2
minutes discussing the number of hours that employees could expect to work
in Iraq and how to claim them administratively – with no time describing what

found was given to employees heading to Iraq in November 2005 and this version did not
contain the cautionary language. The next pay sheet that we found was given to employees
heading to Iraq in April 2006 and did contain the cautionary language.
       31 The sample weekly schedules and the admonishment to “claim only what you work”
was omitted in one version of the handbook distributed in July 2007. The FBI employee
responsible for drafting that version told us that he omitted the information because he was
not a “pay expert” and he was tired of fielding questions about pay issues that he could not
answer. Subsequent versions of the handbook included that information.




                                             30
counted as “work.” According to that trainer, she handed out the pay sheet
that shows the 16-hour “assumed” day and told the Iraq-bound employees
that:

       [This schedule] is assuming a 16-hour workday. If you work more than
       these hours, then you need to TURK it. If you work less than these
       hours, you TURK it. This is a basic guideline, this is an OPR issue, and
       you're all good employees. 32

      We interviewed an FBI administrative employee responsible for
answering questions that other employees raised about scheduled overtime or
other pay issues. That employee was in the ASD at the time and was named in
the ASD Memorandum as a resource who could be called for advice and
information.

       The ASD employee said that when the ASD Memorandum first came out,
she received “dozens and dozens” of calls a day about scheduled overtime. 33
Although she said she could not remember specific questions, she said they
came mostly from agents who wanted to know whether particular hours should
be counted as overtime or availability pay. In addition, she said she received a
lot of questions about whether lunches could be counted as work, to which she
responded, “if they went out and got something to eat, then that does not
qualify as overtime,” but if they ate while they were working then they could be
paid. She said she did not remember anyone asking if they could be paid for
more than 3 hours of exercise a week.

      In the next chapter we describe the facts we found regarding the hours
that FBI employees reported and the hours that they actually worked in Iraq.




        32 The OPR [Office of Professional Responsibility] was the internal FBI office that

investigated FBI misconduct allegations.
        33 The majority of these calls were from FBI employees earning overtime in the United

States, although some of the calls came from employees detailed to Iraq.




                                               31
                          CHAPTER FIVE:
             OVERTIME CLAIMS BY FBI EMPLOYEES IN IRAQ

      As detailed in this chapter, we found that since the beginning of the FBI’s
Iraq mission, virtually all FBI employees in Iraq reported working exactly 16
hours per day, 7 days per week for their entire deployments. We found that as
a result of overtime and other forms of premium pay, including danger pay,
post differential, and Sunday pay, a typical GS-13 step 5 employee received as
much as $45,000 in addition to his regular salary during a 3-month
deployment. The overtime for a 3-month deployment of a typical FBI agent
amounted to approximately $31,500.

       We found that often FBI employees actually worked fewer hours than the
16 hours that they uniformly reported, and that the degree of the discrepancy
varied widely among locations and assignments. However, FBI employees and
managers almost uniformly defended to us the practice of claiming
compensation on the basis of the 16-hour, 7-day schedule because of the
unique and difficult working conditions in Iraq and as an essential inducement
to volunteers for this duty.

      We determined that a few FBI employees raised questions regarding the
propriety of overtime claims being made in Iraq, but these concerns did not
result in any review of or change in FBI practices. Lastly, we found that FBI
employees concluded that FBI management had tacitly endorsed the practice of
reporting 16 hours of work for every day, regardless of their activities.


I. Time Reported

      Our review of all T & A reports filed by FBI employees working in Iraq or
Doha between 2003 and October 2008 revealed that virtually all FBI employees
– regardless of when the employees were deployed, where they lived or what
jobs they were assigned – claimed 112 hours per week (16 hours per day, 7
days per week), for the entire time they were overseas. Of the thousands of
T & A records we reviewed, fewer than 5 percent claimed less than 112 hours
per week. Moreover, many of the employees who initially did not report 112
hours told us that they had meant to report the maximum number of hours
and that their T & A clerks had apparently mistakenly entered fewer hours.




                                       32
      Almost none of the T & A reports reflected more than 16 hours on some
days and less than 16 hours on other days. Instead, virtually every T & A
report claimed exactly 16 hours every day. 34

       In addition, some FBI employees claimed 16 hours of work for 1 or 2
days after they had left Iraq. Some employees were sent to another country for
1 or 2 days of rest and relaxation after they left Iraq and before they took a
flight to the United States. We found that some employees also claimed 16
hours of work for those days in another country. 35

       Our investigation identified only two FBI employees, both of whom
worked in Doha, who intentionally reported significantly fewer than 16 hours a
day. Those employees billed 12 hours per day for 7 days each week during
their deployments in 2005. All other Doha employees deployed before or after
these two employees claimed 16 hours a day, 7 days per week like other FBI
employees in Iraq.

       We also reviewed the Iraq overtime payments made after the November 2,
2007, e-mail that changed the way that T & A forms were approved. That
review showed that initially, virtually all the employees in Iraq continued to
claim and receive pay for 16 hours per day, 7 days per week. In other words,
there appeared to be no difference in the amount of overtime paid before the
policy change (when T & A forms were approved in the United States) and after
the policy change (when T & A forms were approved in Iraq.)

       This practice changed in 2008. As previously noted, the March 2008
Overtime Memorandum required the FBI to prepare quarterly audits of
overtime hours claimed by FBI employees deployed to Iraq and Afghanistan.
As of November 2008, the FBI had completed three such quarterly audits each
for Iraq and Afghanistan. These audits indicate that the practice of FBI
employees uniformly reporting 16 hours of work every day ceased in 2008. The
audits summarized overtime claims on the basis of the average number of
overtime hours reported per pay period. The results are highlighted in Table 2.

        As shown in Table 2, the FBI quarterly audits indicate that during the
first three quarters of 2008, FBI employees reported, on average, between 100
and 114 hours of overtime per 2 week pay period. By comparison, in prior

       34 A few employees billed 15 or 17 hours a day, 7 days a week, but like the others they

habitually billed exactly the same number of hours, day in and day out.
       35   The CTD recommended to each employee’s field office that the office grant 3 to 5
days off after their return, depending on how long the employee spent in Iraq. This was
initially awarded as “administrative leave” but in 2007 the FBI determined that administrative
leave is not available for this purpose. Thereafter, time off was granted by the employees’ home
office as a “time off award.”




                                              33
years Special Agents were uniformly reporting 124 hours of overtime in each
pay period, and non-agents were uniformly reporting 144 hours of overtime per
pay period. In addition, the audits indicated that individual claims for overtime
in 2008 varied considerably from the average, with some employees averaging
as few as 19 hours of overtime per pay period and others averaging as much as
148 hours. According to the audits, therefore, FBI employees have now
stopped the practice of claiming overtime based on a uniform schedule of 16
hours, 7 days a week. However, as discussed below, we believe that some FBI
employees are still reporting time that is not properly compensable as overtime
according to federal regulations, including meal times and time spent in
standby status waiting for assignments.


II.    Cost of Overtime in Iraq

      We calculated the amount of premium pay that was paid to a typical FBI
employee in Iraq during a 90-day deployment. For illustrative purposes, we
used the salary of a GS-13 step 5 employee, which represents the pay level of
an FBI Special Agent with several years of experience. We also used the 2005
pay schedule with a “rest of the U.S.” locality adjustment. 36 We believe such
an estimate of the premium pay given to this hypothetical Special Agent would
be a conservative estimate of the average amount paid to FBI employees sent to
Iraq.

      Our calculations are summarized in Table 3. We based the calculation
on the agent reporting 16 hours of work every day for a 13-week (91-day)
deployment, as almost all agents actually reported prior to 2008. This
translates to 112 hours per week, of which 40 hours are regular time, 10 hours
are availability pay time, and 62 hours are overtime (5 hours for regular work
days and 16 hours for “weekend” days). Based on the generic 16-hour
schedule, the agent would also be eligible for 5 hours of night pay every day.
For Sunday pay we assumed 13 Sundays during the deployment. For holiday
pay we assumed two holidays during the deployment. We also credited the
hypothetical employee with the 25 percent post differential and 25 percent
danger differential that the FBI made available to employees in Iraq. 37

     As shown on Table 3, the typical GS-13 step 5 agent received a total of
$45,126 in premium pay (including $31,531 in overtime pay) for working a 13-
week deployment in Iraq in 2005, above and beyond his regular pay for that

       36 This “rest of the U.S.” locality adjustment is the lowest such adjustment for any

region of the United States. See http://www.opm.gov/oca/05tables/indexLEO.asp. We note
that many FBI employees deployed to Iraq received a higher locality adjustment, but no
employees received a lower one.
       37   According to the FBI, these percentages increased to 35 percent in 2006.




                                                34
period of $25,428 (including availability pay), for a total compensation of
$70,554 during the 13-week deployment. In other words a typical agent in Iraq
was able to nearly triple his regular income during the period of his
deployment.

      We requested information from the FBI regarding the total cost of
premium pay awarded to FBI employees in Iraq since 2003. The FBI said it
could not provide any records or calculations of the total premium pay that it
has paid to employees in Iraq, and it does not appear that the FBI has been
keeping or compiling any such specific records. The information the FBI
provided did not permit us to calculate a precise total. Among other things, the
data provided by the FBI did not distinguish between FBI employees sent to
Iraq and other FBI employees who earned overtime working in the United
States on the Iraq mission or on certain other matters for which overtime had
been approved.

      The only document that we received from the FBI that purported to
estimate or analyze the total costs of premium pay in Iraq was the 2005
Overtime Memorandum. However, we found that the 2005 Overtime
Memorandum contained computational errors and inconsistent assumptions,
and did not provide a reliable estimate of the cost of overtime or other premium
compensation paid to FBI employees in Iraq. For example, the financial
analysis in that Memorandum stated that the average employee would receive
$11,247 in Sunday pay, the same amount that would be paid for danger pay
and as a post differential. This figure is too large for Sunday pay by an order of
magnitude. Rather, as shown on Table 3, a typical agent would earn about
$1,017 in Sunday pay for 13-week tour. The formula for Sunday pay is
completely different from the formulas for danger pay and post differential pay;
these formulas could not generate identical numbers if applied properly.

      Therefore, we believe a more accurate, albeit extremely rough, estimate of
the total cost of premium pay in Iraq can be constructed by multiplying the
figures on Table 3 for a “typical” GS-13 step 5 agent by the total number of
tours that FBI employees have served in Iraq since 2003. As of the time of this
report, FBI employees had completed approximately 1,400 tours in Iraq since
2003. Our calculation of estimates for the total costs of various kinds of
premium pay for FBI employees in Iraq is shown in the last column of Table 3.
We estimated that the FBI has paid a total of approximately $63 million in
premium pay for employees deployed to Iraq since 2003, of which
approximately $44 million was for overtime. We recognize that these estimates
are rough because there is variance in the pay rates for different FBI
employees. However, in the absence of more detailed data from the FBI, this
estimate provides a sense of the general magnitude of costs that the FBI has
paid to employees as premium pay for service in Iraq, including overtime pay.




                                       35
III.   Time Actually Worked

      To attempt to determine the amount of time that FBI employees were
actually working while deployed in Iraq, we interviewed a variety of FBI
employees, including both those who had been in Iraq and those who had
stayed in the United States but had various responsibilities for the Iraq
program. We also reviewed FBI documents, including: (1) anonymous
questionnaires that were administered to all FBI personnel returning from Iraq
between July 2005 and October 2007; (2) after-action reports written by the
On-Scene Commanders who supervised FBI personnel in Iraq; and (3) after-
action reports written by FBI trainers describing their activities in Iraq. 38 The
questionnaires and after-action reports did not focus directly on the issue of
overtime hours, but they contained contemporaneous statements that revealed
important information related to our investigation. Because our investigation
revealed that the hours worked by any particular individual depended in part
on both the location where that person was living and the job assignment that
person received, this section is organized by location and job assignment.

      In general, we concluded that the T & A forms completed by employees in
Iraq are not an accurate reflection of the hours actually worked. Although the
T & A forms almost universally claimed 16 hours of work every day, 7 days
each week, the witnesses and documents revealed that many FBI employees
did not work that many hours. In addition, many employees told us that they
did not work exactly 16 hours every day, but that some days were longer than
16 hours and some days shorter. However, while some employees told us that
they occasionally worked as much as 24 hours in a day, we found no T & A
form that claimed 24 hours.

       A.     FBI Employees in Baghdad

      The FBI employees who worked in Baghdad generally told us they
worked at least 16 hours a day, 7 days a week, although several stated that
that would have been an average and not necessarily the exact total of hours
for each day. 39

       38The questionnaires primarily sought information related to logistical matters, such
as whether employees were properly equipped, and the FBI stopped conducting the survey in
2007.
        39 We could find no indication, either written or oral, that any employee ever took any

sick leave while serving in Iraq. An employee taking sick leave would only be able to claim 8
hours pay for that day. There were indications that employees were not always well. For
example, one supervisor noted that he was extremely rattled by a roadside bomb that exploded
and hit another vehicle in a motorcade in which he was traveling. Afterward, he said, he took
several hours off to recover his composure. Also, he said, another FBI employee was very upset
when he learned about some of the fatalities in Iraq. The supervisor said the other employee
needed several days off. We find it difficult to believe that out of more than 1,150 employees
(Cont’d.)


                                              36
       Further, several employees acknowledged that not all 16 hours were
spent on activities constituting “work” within the meaning of applicable
regulations and policies. Several employees we interviewed noted that FBI
employees generally hosted a cocktail party every Saturday evening. The
parties were held at a club or facility in Baghdad, which had a bar stocked with
alcohol. While some employees would go to the club on weeknights, it was
most crowded on Saturday evenings during the cocktail parties. The
employees said that the festivities at the club began in the evening (accounts
differed as to the exact hour it began), and several DOJ attorneys stationed in
Iraq at that time said that it would have been impossible for FBI employees to
be working 16 hours on the Saturdays when they quit early to attend the party
at the club. 40

      Several FBI employees claimed the time spent at the cocktail party was
“work” because it was a “liaison” effort that brought various benefits to the FBI.
For example, several employees said that some of the employees from other
government agencies who joined them at the parties often ended up helping the
FBI later on. As one employee put it:

       Even the small amount of time . . . I spent and others spent at [the club],
       that was furthering the FBI’s mission. For liaison purposes, it was
       fantastic. I can give you example after example of how that liaison effort
       paid off with favors and other things that would be done for us.

       One employee stationed at the Baghdad Operations Center said that at
times employees watched DVD movies on one of the televisions located within
the building or on the television located in the club. Several FBI employees
noted that they periodically spent time during the work day washing clothes.
Questioned whether he should have been paid for the time spent in this
activity, one employee defended the practice, saying, “when you’re in that
environment, anything you do to survive is work for the FBI.”

      In the following subsections we address the activities and hours
associated with particular job assignments in Baghdad.

              1.     Trainers in Baghdad

     As described in Chapter Three, the FBI sent trainers to Iraq for several
weeks at a time to help train Iraqi police. We believe it is unlikely that these


who served approximately 1,400 tours in Iraq, not one employee missed a single work day
because of illness.
      40 The DOJ attorneys, who were in Iraq to help staff the RCLO, worked with the FBI

employees assigned to that task force.




                                            37
trainers worked 16 hours a day, 7 days a week. According to several of the
trainers, they arrived at their classrooms each morning and the classes would
end 8 or 9 hours later. They said that they would prepare for the following
day’s classes before returning to their quarters by the late afternoon.
Moreover, because the Iraqi students worked Sunday through Thursday, the
trainers gave classes only those 5 days. On occasion the courses were
postponed or canceled due to political or security issues or religious holidays.

        An On-Scene Commander also stated in an after-action report written in
November 2005 that a 7-week training course for Iraqi police officers “was
hampered by class cancellations due to pay day and religious holidays. Also
there were interruptions due to a major sand storm, two fires, and the
assassination of two Iraqi police officers who worked at the . . . training
facility.” Similar problems were noted in an after-action report written in
January 2006, which reported that a 6-week course (dubbed “CT8”) to train
Iraqi police, military, and intelligence officers “was hampered by class
cancellations due to pay day and religious holidays.” The report stated:

      CT8 gave up its first week of training to the Bureau of Alcohol, Tobacco
      and Firearms (BATF) so they could present a post-blast class to a
      combined session of CT7 and CT8. […] class was then shut down by the
      Interior Minister from 10/9/2005 through 10/16/2005 so that the
      students could help with security for the referendum. Class was also not
      in session during the four day ‘Eid’ holiday following the conclusion of
      Ramadan (11/3/05 and 11/6/05).

Yet, virtually all trainers put on their time and attendance forms that they
worked 16 hours a day, 7 days a week for all the weeks they were in Iraq.

      We also reviewed after-action reports written by the trainers themselves.
According to several of these, a number of planned classes had to be cancelled
due to problems ranging from a lack of students to bombings and curfews. For
example, one group of three trainers who went to Iraq for approximately 4
weeks during the summer of 2007 had more than half their classes cancelled.
There were no classes the first week, mostly due to a curfew imposed on
Baghdad after a bombing; four classes the second week; no classes the third
week because no students showed up; and five classes the fourth week.
However, the three employees teaching that class each claimed 16 hours a day,
7 days a week for the entire time they were in Iraq.

      The trainers we interviewed said that they used evenings, Fridays, and
Saturdays to prepare for upcoming classes. One trainer claimed that, in
addition to their regular duties, the trainers spent substantial time helping
others at the Baghdad Operations Center and working overnight shifts on the
security detail. However, one of the Baghdad Operations Center supervisors
said he did not remember asking trainers to serve any overnight security shifts.


                                       38
Taking all of the available evidence together, we concluded that the FBI trainers
sent to Iraq did not work 16 hours a day, 7 days per week, and did not work
that many hours on average during their deployments.

            2.     Regime Crimes Liaison Office

       As previously noted, the FBI assigned employees to the Regime Crimes
Liaison Office task force (RCLO), to assist in preparing evidence for the trials of
Saddam Hussein and his associates. Although one RCLO supervisor who was
in Iraq for most of 2005 claimed that every employee he supervised worked an
average of 112 hours a week, we found significant evidence that the FBI
employees did not work that many hours. For example, at least six different
FBI employees who completed post-deployment questionnaires at various times
between October 2005 and July 2007 commented that the RCLO was over-
staffed. One stated:

      I had to laugh when I saw the number of people assigned to RCLO.
      There were more people assigned to RCLO [even though] two trials would
      essentially have been resolved [earlier]. Maybe they needed extra poker
      players.

In an after-action report dated January 4, 2007, an On-Scene Commander
returning from Iraq stated that some employees working on the RCLO:

      expressed frustration . . . as there was not enough work to keep the
      [employees] fully engaged. As such, there was an inordinate amount of
      “down time” on behalf of the [employees].

      We interviewed several DOJ attorneys who worked directly with the
RCLO employees and had an opportunity to observe their work hours. These
witnesses questioned whether the RCLO employees worked anywhere near the
16 hours they claimed for every day.

      For example, one DOJ attorney who was in Iraq during all of 2006 and
2007 told us that the RCLO employees generally worked about an 11-hour day.
Some days, he said, they had a 90-minute lunch in the middle. Also, the
attorney said, the agents worked Monday through Friday and half of Sunday,
but generally not on Saturday. According to the attorney, FBI employees told
him that they did not have to document their overtime and that they would be
paid for the maximum number of hours regardless of the hours they actually
worked.

       Another DOJ attorney who was assigned to the RCLO during the latter
half of 2006 said that most RCLO staffers worked 8 ½ hours each day, taking




                                        39
Fridays off but working most of the day on Saturdays. 41 This schedule would
equal, at most, 51 hours per week, assuming no meal breaks.

      Another DOJ attorney assigned to the RCLO in Iraq during the latter half
of 2006 said that the RCLO employees worked 6 days a week for approximately
11 ½ hours per day, although some trial days could be longer and occasionally
a day could last over 16 hours.

       According to another DOJ attorney who was in Iraq for all of 2006 and
the first half of 2007, most RCLO employees worked about 8 to 10 hours a day,
6 days a week – although some employees worked longer or shorter hours.
Although he said he was not sure what the FBI employees were doing when
they were not in his presence, this attorney said he did not believe they were
working anywhere near 112 hours a week. According to this attorney, the FBI
employees told him that they expected to get a certain amount of money, but
that they were never told they had to work a certain number of hours for it.
Instead, they said, it was a “perk” of their job.

       FBI employees who worked on the RCLO disputed the DOJ attorneys’
claims, arguing that the attorneys were not with them all day and did not
realize all the other jobs that the FBI employees were doing. While the RCLO
staffers may not have worked 112 hours a week on RCLO business, one FBI
supervisor said, they nevertheless had worked the remaining hours on other,
non-RCLO business.

     However, a supervisor in Washington said that it was a “common
assumption” that the RCLO employees were not working as hard as the
employees at the military base north of Baghdad and some of those at the
Baghdad International Airport (BIAP).

      In sum, we concluded that there was substantial evidence that FBI
employees who were assigned to the RCLO task force did not work 16 hours
every day of their deployment, as they indicated on their timesheets.

               3.     Major Crimes Task Force

      The FBI also placed employees with the Major Crimes Task Force (MCTF)
in Baghdad to assist Iraq police with training and criminal investigations.
Although the MCTF employees reported 16 hours days, 7 days a week like
other FBI employees in Iraq, the actual hours that MCTF personnel actually
worked varied widely over time.



      41   The official weekend in Iraq is Friday and Saturday.




                                               40
       One reason that the hours of MCTF employees varied so widely was the
fact that to perform many of their functions the employees had to leave the
Green Zone for the more dangerous areas of Baghdad and beyond. One of the
FBI’s MCTF supervisors estimated that employees assigned to the task force
worked 12- to 14-hour shifts on most days. That supervisor also stated that
when those employees had special assignments outside of the Green Zone,
their shifts could last 24 to 48 hours straight, or even longer.

       However, because each trip out of the Green Zone had to be pre-
approved by FBI headquarters as part of an effort to ensure the safety of FBI
employees, most of the time the MCTF employees were confined to the Green
Zone. An after-action report dated March 2006 noted that “operational aspects
of the MCTF have been hampered by funding problems and related equipment
issues, as well as safety concerns associated with the travel of U.S. task force
members outside the [Green Zone].” According to a January 2007 after-action
report, during approximately 1 year of operation, MCTF employees had gone
outside the Green Zone a total of 46 times, most of which were 1-day trips.
The FBI’s legal attaché in Iraq likewise estimated that MCTF employees left the
Green Zone (on investigations) about 50 times between the fall of 2005 and
February 2007, generally for no more than a day, and that not every MCTF
staffer would go on each trip outside the Green Zone. The legal attaché
estimated that, when in the Green Zone, MCTF employees generally worked
about 12 to 14 hours a day, including breaks for food and physical training.

       One On-Scene Commander estimated that the MCTF employees worked
fewer hours than employees assigned to many of the other jobs in Iraq. A DOJ
attorney who was assigned to the RCLO in Iraq from the spring of 2005 to the
spring of 2007 said that he believed most employees assigned to the MCTF
were working 8 to 10 hours a day. According to that attorney, on many days
he would see MCTF employees twice: once in the morning as they were getting
coffee in the embassy cafeteria and again in the late afternoon as they were
sitting around a table there. When he asked them what they had done during
the day, he said they would often tell him that they had not accomplished
much because their FBI supervisors would not allow them to leave the Green
Zone. Without leaving the Green Zone, they explained to him, they could not
really investigate the cases that had been assigned to them.

      In sum, we concluded there was substantial evidence that many FBI
employees detailed to the MCTF did not work 16-hour days, 7 days a week,
particularly during the extended periods that they were confined to the Green
Zone.

      B.    Baghdad International Airport

        As noted in Chapter Three, FBI agents conducted interviews at military
facilities within the Baghdad International Airport (BIAP). At the BIAP, one


                                      41
supervisor said, most employees worked 15 ½ - 16 hour days, 7 days a week.
He said these days would generally include hour-long workouts in the gym and
dinner at about 6:00 p.m. The supervisor estimated that employees there
worked at least 95 percent of the reported 112-hours-per-week, and there were
a number of times when employees were called to work after 11:00 p.m.

       However, we found indications that not all employees living at the BIAP
worked 16 hours every day. For example, one employee who was on one of the
earliest deployments to Iraq (during the period when everyone was sleeping in
tents at the BIAP) said that most nights they would project a movie on a wall
for 2 or 2 ½ hours. “Sometimes we’d sit there and watch the whole movie.
Other times, you had work to do,” he said.

       As at the Baghdad Operations Center, during later years there was a bar
at the BIAP where FBI employees held cocktail parties every other Saturday
night during hours that employees reported as work. Also, some of the
employees occasionally saw a movie that the military screened on a week night
starting in the early evening (again during hours reported as work) , and others
went swimming from time to time in a nearby pool. None of the T & A forms
reviewed by the OIG and INSD showed any variation in hours billed that would
indicate deductions were made for time spent at Saturday night cocktail
parties, movie screenings, or other recreational activities.

      We concluded that although FBI employees worked long hours at the
BIAP, they did not consistently work 16 hours every day for their entire
deployments.

      C.    Other Iraq Locations

       The majority of the FBI employees elsewhere in Iraq lived at a military
base north of Baghdad. Most of these employees were interrogating detainees
and were assigned to one of two overlapping 13-hour shifts. There were no
weekend breaks. According to the FBI base supervisor, the employees involved
in interrogations worked at least 13 hours a day, and often 14-15 hours. One
On-Scene Commander wrote in an after-action report that FBI employees
stationed at one of the military bases north of Baghdad – “are required to work
fourteen plus hours per day, with no time off.” In sum, it appears that FBI
agents who conducted interrogations at the military base worked extremely
long hours. Upon examination, however, even these employees were likely not
working 16 hours every day for the full duration of their deployment.

      In addition, there were generally one or two FBI employees at that base
who participated in military missions outside of the base. Those employees
generally started working in the afternoon and often did not finish until 17 to
18 hours later the following day on the days when they went out of the base.
Similarly, several FBI employees at other military bases throughout Iraq


                                       42
participated in military missions outside of the bases. Those employees also
worked similar 17 to 18 hour shifts, at least on days when they went out on
missions. It is difficult to know how many hours FBI employees who
participated in military missions worked per week, but the evidence indicates
they did not work the uniform 16-hour schedule that they reported. 42

       D.     Doha, Qatar

      As previously noted, a few FBI employees were detailed to Doha to
provide support for the FBI mission in Iraq. Again, we found evidence that the
Doha employees did not uniformly work 16 hour days for every day of their
deployment.

      First, as noted above, two FBI employees sent to Doha in late 2005
reported working 12-hour days for 7 days per week. Those employees initially
questioned why they were not permitted to claim the same hours as other FBI
employees detailed to Iraq, but they told us that once they arrived in Doha they
found that they could complete their work within 12 hours. Nevertheless, the
FBI employees performing the same functions in prior and subsequent
deployments claimed 16 hours, 7 days per week. The experience of the two
employees in 2005 suggests that others with the same job assignment did not
necessarily work 16-hour days.

       Another employee who worked in Doha in early 2007 said:

       Did I necessarily work [a 16-hour day]? No . . . [but] there was one
       stretch where I worked 36 hours without sleeping because I was running
       back and forth. . . . I would catch a nap out at the air base while I’m
       waiting on somebody or something like that. . . . I was working more
       than 16 hours . . . but some of it may have been sitting there twiddling
       your thumbs waiting on the phone to ring, too.

       The same employee said that most employees left their quarters in the
morning and left the office (to return to their quarters) about 14½ or 15 hours
later. Travel each way took about an hour, he said, or longer if the traffic or
weather was bad. Both of the Doha employees that we interviewed said that
they included the time spent commuting from their quarters to the military
base where they worked in the hours they reported as work.

      One employee who worked in Doha said he played some tennis on the
base. A DEA employee who worked alongside FBI employees in Doha said that

       42  The number of nightly missions during any given period at any of the bases varied,
depending on a number of factors. The precise number of missions that the teams logged at
the military base north of Baghdad is classified.




                                              43
he worked shorter days on Fridays and Saturdays and only billed for 10 hours
on those days.


IV.    Employee Justifications

      The FBI employees we interviewed uniformly told us that they believe FBI
employees in Iraq should be paid for a 16-hour, 7-day per week schedule.
Some FBI employees felt they should be paid for every hour they were awake in
Iraq. Comparing time “worked” in Iraq to time “worked” in the United States,
most said, was comparing apples to oranges. As one FBI agent put it:

       In Iraq, first of all, you’re in a war zone. […] And you’re on duty 7 days a
       week, . . . 24 hours a day depending on what’s going on in Iraq that day.
       For example [in the United States] I know pretty much on a day-to-day
       basis what I’m going to be doing. […] In Iraq, you’re taking care of the
       building, you are conducting interviews, you’re doing counterterrorism
       missions. Whatever it is that they need you to do, . . . you do it. So it’s
       much different than work here in the United States.

       Asked for specific reasons why work in Iraq was not comparable to work
in the United States, most employees gave one or more of the following reasons.
First, life in Iraq was dangerous and stressful, whether housed at the relatively
safe Green Zone or at one of the less-safe military bases. As one FBI employee
stated, “we were attacked all the time; we were shot at all the time. Mortars,
mortar attacks and sniper attacks were a constant. You wore a [bullet-proof]
vest, you wore a helmet . . . if you were outside.” Even at night, another person
said, the attacks were a problem: “Even after you shut down your day, which
is late into the p.m. hours, when you get a few hours of sleep, you’re constantly
being awakened by explosions and things of that nature.” 43 Although no FBI
employee has been killed or seriously injured physically, several have been in
or near areas under mortar attack and at least a few have been in convoys
attacked by improvised explosive devices. 44

       Second, the employees said there was little or nothing to do in Iraq after
work hours. For example, there were no safe locations where they could go
after work to restaurants or movie theaters – the types of diversions that can be
counted on when traveling in the United States.

        43 Based on these reasons, some employees said that the hours they spent working out

in one of the Green Zone gyms should count as work because they were furthering the FBI
mission. As one said: “We’ve been trained there’s no better way to relieve stress. And you’re
in a very stressful environment . . . .”
       44 In Afghanistan, FBI agents were involved in several ambushes and violent actions,

leading to a temporary suspension of participation in some of the more dangerous missions.




                                             44
      Third, some claimed that the FBI employees were on standby the entire
time that they were in Iraq. As one supervisor put it: “I had no qualms about
waking people up and keeping them up all night.”

      Fourth, at least one employee said that he did not believe the FBI would
get as many volunteers to serve in Iraq if the pay were cut, and another
employee said the money helped “sell it at home” to his wife.

      Fifth, several employees told us the unique nature of work in Iraq,
including periods of waiting with nothing specific to do, made it difficult to
know when they were “working” and to accurately count their hours. For
example, one supervisor stated that sometimes the military would declare lock-
downs and forbid everyone from leaving a prison building. In one such
instance, that supervisor said, one of the FBI employees who had been visiting
the prison was required to remain in a building for hours late at night, even
though no work was getting done. Another employee said that keeping
accurate track of the hours worked was not a simple matter. Asked if everyone
was working 16 hours a day, he said:

      Probably not. But in a practical sense, I’m not really sure how you would
      know whether you worked 16 hours a day. I mean, you work four hours
      at this and you've got a half hour where you're sitting there doing
      nothing, and then you've got another two hours where you have to, you
      know, go meet up somewhere. […] As somebody who was there, I’m not
      really sure how they would parse the day and say, ‘okay, you know, I
      worked this many hours today and then I worked this many hours.’ It
      just doesn't seem like it would be a really practical way to do it.

Under that same theory, the employee said, he believed that the time spent
eating – approximately 2 to 3 hours a day for many – should also be counted as
work.

     Seventh, many employees who had been to Iraq claimed that the days
when they worked more than 16 hours more than offset the days when they
worked less. These employees stated that they believed, on average, they
worked 16 hours a day, 7 days a week.


V.    Concerns About Overtime Claims Are Raised in FBI Headquarters

       We found that a small number of FBI employees raised concerns to their
supervisors or FBI Headquarters about the propriety of pay practices in Iraq.
However, we found no evidence that any of these concerns led to any review of
FBI pay practices or an examination of whether they were consistent with law
or policy.



                                      45
      Concerns about pay practices for FBI employees in Iraq arose in
connection with a complaint by an FBI analyst assigned to Doha that he and
another Doha employee were unfairly denied a benefit – overtime pay based on
16 hours per day, 7 days a week – that was being provided to other FBI
employees there. These two employees believed that they were supposed to
claim no more than 12 hours per day, 6 days each week. 45 In September 2005,
about a month before leaving for Doha, one of the employees sent an e-mail to
his FBI supervisor in CTD’s Communications Exploitation Section (CXS),
Charles Kelly. 46 The employee’s e-mail attached a copy of the pay sheet which
assumed a 16-hourworkday beginning and ending at specific times. Shortly
afterward, Kelly forwarded the pay sheet to other CXS supervisors (including
Laurie Bennett, then the Chief of CXS) and another employee who had
previously been deployed to Doha. Kelly asked if it was “essential” to work 16
hours in Doha. Kevin Duff, a supervisory analyst who worked directly for
Bennett, replied: 47

       The schedule was established during the Feb/March timeframe in early
       2003, during the beginning of the war. It was based on work hours in
       Iraq, which, believe it or not, were legitimately 16 hours a day – 7 days a
       week. When not working on specific Bureau business, our folks in Iraq
       were working just to survive – servicing the generators, picking up food,
       water, fuel, etc. There really was no time off. . . . The schedule was
       extended to Doha, because Doha supported the folks in Iraq and
       generally had to be available for them. . . . I think also, from the
       viewpoint of . . . management, the extra pay was a beni for being
       overseas for so long.

       A month later, soon after arriving in Doha, the analyst again sent an e-
mail, this time to Duff, noting that he and his co-worker in Doha were the only
ones in either Iraq or Doha who were “in theater doing it this way.” The analyst
told us he was referring to submitting 12 hours a day for pay. In response,
Duff replied:

       I think everyone views the extra pay as a benefit, if not an entitlement.
       Problem is, federal pay law might not view it that way. All the recent
       questions have raised the level of scrutiny and have people around here
       talking about T&A fraud. While I certainly don’t think it will come to


       45 One of the employees told us that before they were deployed to Doha their
supervisors in CTD told them to report their time according to this schedule. However, the
employee’s supervisor denied that she imposed a 12-hour, 6-day limit. She told us she merely
instructed the employee to report only the hours he worked.
       46   Charles Kelly is a pseudonym.
       47   Kevin Duff is a pseudonym




                                             46
       this, it could, potentially lead to a giant OPR [Office of Professional
       Responsibility investigation].

      Less than a week later, after several intervening e-mails, Kelly wrote to
the analyst in Doha:

       Don’t worry about this T&A thing. If we keep our noses clean, as you are
       doing, we will be alright. It’s the past practices that have raised the
       concerns. People are just asking the question, ‘are we working 16 hours
       over there?’ CTD Admin is taking a look at the issue. This has the
       potential to be a very big issue. We are talking about millions of $dollars
       (sic) in overtime payments.

The FBI analyst who raised this issue told us that after he reported to Doha he
dropped the matter because he found he was able to complete his duties within
the 12-hour, 7-day schedule that he reported on his time sheets.

       Kelly told us that his statement in his e-mail indicating that “CTD Admin
is taking a look at the issue” referred to discussions that Duff had with Linda
Prince, then-Chief of the Administrative Management and Support unit within
the CTD, and Gary Nettles, Iraq Program Manager for the Rapid Deployment
Logistics Unit (RDLU) within the Critical Incident Response Group (CIRG). 48
Duff wrote an e-mail to the analyst in Doha in which he said that Prince and
Nettles were looking into the issue. However, Duff told us that he could not
recall the specifics of what he discussed with Prince or Nettles or what they
may have been looking into. 49

       Nettles said he had no recollections of looking into an issue with Prince
as referenced by Duff in his e-mail. Prince said she recalled speaking to Nettles
to request any written policy on work hours for employees detailed to different
areas of Iraq, but that Nettles did not have any written policies.

      Bennett told us that she had wondered whether employees could really
work the number of hours daily in Iraq that were submitted on their T & A
sheets, but said she did not take her concerns to her supervisors in CTD or
other FBI executives. While Bennett said she could not remember many details
about her concerns, Duff (who worked directly for her) told us he recalled
meetings of CTD managers during which Bennett and others commented that


       48   Linda Prince and Gary Nettles are pseudonyms.
       49  Duff stated that it is possible Prince and Nettles were looking at the CSX analyst’s
complaint that he would be paid less than other FBI employees deployed to Iraq, or that they
may have been looking at the more fundamental question of whether employees deployed to
Iraq are legitimately working 16 hours and whether this constituted “gross mismanagement.”




                                               47
“there’s no possible way that people are working 16 hours a day 7 days a week”
for 90 straight days.

      Prince told us that Bennett contacted her asking questions about the
overtime policy for employees detailed to Iraq. Prince said Bennett was
concerned that there may be T & A fraud occurring, given a policy that
authorized blanket shifts of 16 hours, 7 days a week, with no requirement that
personnel in Doha sign in and out on a daily basis. Prince said Bennett also
questioned the need for FBI Intelligence Analysts to work in Doha under such a
schedule, and whether personnel deployed to Doha would work the same hours
as those in Iraq. Prince said she and her superiors also could not understand
why employees were not keeping track of the actual hours they worked by
signing in and out of work daily. She stated:

       I just don’t understand, if you actually are doing something at 4:00 a.m.,
       why you’re not logging in and saying you’re working at 4:00 a.m. and if
       you’re done at 11:00, or if you’re done at 10:30, those should be the
       time[s].

In addition, Prince said it was rumored around the FBI that employees in Iraq
could get paid for 16 hours without actually working the full 16 hours.

       Prince said she raised concerns about overtime claims with T.J.
Harrington, who was then the Deputy Assistant Director of CTD. She said
Harrington told her that all Iraq employees should be keeping daily logs of their
hours. 50 Harrington told us that it was always his position that FBI employees
in Iraq should keep a “straight book” with respect to their time. As discussed
in Section VI of this chapter, however, Harrington told us that he believed,
because of conditions in Iraq, FBI employees should be entitled to claim
virtually all their time up to a maximum of 16 hours per day as work time.

       Despite the concerns about pay practices in Iraq that were raised at
various times, we found no evidence that before the initiation of this
investigation FBI Headquarters ever reviewed the hours worked by employees
in Iraq, made any changes in the oversight mechanisms, or provided clear
guidance on what hours could be claimed. 51



       50 As noted above, until recently FBI practice for signing in and out meant marking a

T & A card with arrival and departure times. However, since November 2007 the FBI has been
using a new automated system that does not require reporting of arrival and departure times,
but simply an accounting of the total hours worked each day.
       51 As discussed in Chapter Seven, the FBI made a brief effort to review overtime claims

in Afghanistan in December 2005 and March 2006.




                                              48
      As noted above, after our investigation began CTD management issued
additional policies relating to overtime. Eventually, FBI employees in Iraq
began reporting variable hours rather than uniformly reporting 16 hours every
day.


VI.    FBI Management Positions on Pay Practices

       Thomas J. Harrington was Deputy Assistant Director of the FBI’s
Counterterrorism Division from December 2002 until March 2008. 52 The CTD
was responsible for staffing and supervising almost all of the FBI employees in
Iraq. Harrington told us he was responsible for administrative matters in the
division, which included the FBI programs in Iraq and Afghanistan. Harrington
was also listed as one of the approving officials on the 2003 and 2005 Overtime
Memorandums, although he stated in our interview that he did not think he
had actually seen the 2003 memorandum before our interview.

       Harrington told us that the FBI initially planned to send agents to Iraq
for only a short period, immediately after the invasion. Harrington told us that
after that decision was made to keep FBI employees in Iraq for longer periods,
Larry Mefford, the Assistant Director for CTD during the Iraq invasion, was
“pretty adamant to make sure that the guys got paid every single dime possible
under the circumstances,” and told Harrington “not to make an issue” over the
amount of money paid. 53

      Harrington acknowledged that the FBI’s practice was to permit FBI
employees in Iraq to claim overtime on the basis of a 16-hour, 7-day schedule.
He described the 16-hour standard as a maximum, but he also stated that
because of the severe circumstances in Iraq, he believed that virtually all
waking hours in Iraq were spent working or on call, and he also said that
employees were not in a position to do anything else with their time.
Harrington said he believed that all such hours should be compensated as
work. However, Harrington said he did not realize – until we informed him –
that employees were getting paid for the time spent drinking at cocktail parties
at the Baghdad Operations Center and BIAP. “I wouldn’t be comfortable”
paying employees for the time they spent at cocktail parties, he said, both
because the military has a no-alcohol policy in Iraq and because FBI employees
need to be ready to respond appropriately at any time – something that could



        52 Harrington was recently promoted and is now Associate Executive Assistant Director

for the FBI’s National Security Branch. Harrington stated that his comments applied equally to
employees in both countries.
       53   Mefford is now retired.




                                             49
be prevented by too much alcohol. “Using your weapon and having alcohol [do
not] mix,” he said.

      Harrington said that the Assistant Directors for CTD were ultimately
responsible for setting the 16-hour standard for overtime. Mefford was the first
Assistant Director during the Iraq mission, and Harrington said that he and
Mefford “discussed these kinds of issues pretty regularly.” Harrington said he
wasn’t personally involved in a specific decision to allow employees to claim pay
for 16 hours a day, but he told us it was the “most realistic” number that the
FBI could have used. Harrington said he was not certain exactly when the 16-
hour standard was adopted in writing, but he thought it was “in the 2004 time
range.” 54

      Harrington gave several justifications for permitting FBI employees to
claim 16-hour workdays in Iraq: (1) agents in Iraq are required to be
constantly on-call and ready for duty, including during mealtimes, and should
be paid for all those standby hours like firefighters; (2) agents have no freedom
to use their off-time in Iraq; (3) agents should be paid for physical exercise in
order to maintain fitness and relieve stress; (4) conditions in Iraq are difficult,
uncomfortable, and dangerous; and (5) generous overtime pay is a necessary
inducement to volunteers for Iraq duty. 55 He also said that although he was
not certain that FBI employees assigned to Doha, the RCLO, or the MCTF were
as busy as FBI agents conducting interrogations at military facilities in Iraq, it
would create “management problems” to pay some employees in Iraq more
overtime than others.

       Harrington contrasted duty in Iraq to that in Guantanamo Bay, Cuba.
Initially, Harrington said, FBI employees working in Guantanamo were paid for
16 hours. Harrington said that after visiting Guantanamo, he terminated this
practice because there wasn’t enough work to justify it and because living
conditions there were not too austere. In contrast, Harrington said, his visits
to Iraq convinced him that employees there should be paid overtime because
they had enough work to keep them busy and were living under extremely
difficult conditions.




        54 We describe all of the written memoranda and pay sheets that the FBI provided to us

in Sections I and II of this Chapter. It is not clear from those materials when the FBI
specifically adopted the 16-hour standard.
       55 Although FBI employees were on call 24 hours a day, Harrington did not suggest
paying overtime for more than 16 hours a day. He said “that’s what hazard pay is for.”
(Harrington was likely referring to “danger pay,” described in Chapter Two. Most employees in
Iraq do not qualify for “hazard pay,” which relates to duty involving certain unusual physical
hardships or hazards. See 5 C.F.R. § 550.901 et seq.)




                                              50
VII.   Conclusions Regarding Hours Worked in Iraq

      Due to the lack of accurate records and the uniform practice among FBI
employees of reporting exactly 16 hours of work every day for their entire
deployments, we were unable to construct any estimate of the number of hours
that FBI employees actually “worked” in Iraq, as that term is used under the
relevant laws, regulations, and FBI policies.

       The evidence is clear, however, that the actual number of hours that FBI
employees worked in Iraq varied widely. We found that some employees
worked differing hours from day to day and week to week, depending on the
demands of their assignments. Other employees worked as many as 24 hours
on some days. The evidence showed that there was also great variance in
hours worked among different employees, depending on factors such as
location, assignment, and employee diligence.

       The FBI employees we interviewed generally agreed that they did not
report their hours precisely, but rather understood that they were permitted to
claim pay for 16 hours of work every day for each day they worked in Iraq as a
rough “average” of the time they actually worked in recognition that they were
always on call, had limited opportunities to use off-time for private purposes,
and as a tacitly approved “benefit” that served as an inducement to volunteer
for this assignment, where they were working and living under stressful and
uncomfortable conditions.

       The employees’ understanding about reporting their time mirrored the
justifications given by Deputy Assistant Director Harrington for the 16-hour
standard workday. We found that the FBI’s written memoranda, “pay sheets,”
and oral instructions, as described in Chapter Four, were at best vague and
ambiguous regarding what constituted “work” in Iraq and how FBI employees
should report their time and attendance. Although some pay sheet
instructions advised FBI employees to report only what they worked, it appears
that employees in Iraq understood that because of their on-call status and lack
of opportunities for recreation, virtually all waking hours could be considered
“work.”

       We concluded that prior to this investigation most FBI employees
believed that they had been approved by FBI management to claim
compensation for 16 hours for every day they spent in Iraq, regardless of how
many hours they were actually working. Given FBI management’s tacit
approval of this practice, and the lack of documentation or other evidence
about the number of hours particular employees actually worked on each day,
we did not find sufficient evidence to conclude that particular FBI employees
detailed to Iraq committed misconduct with respect to their overtime claims.
Yet, as we discuss in the next chapter, these same employees were not entitled
to claim 16 hours a day, 7 days a week without regard to how many hours they


                                      51
actually worked. Rather, as discussed in the next chapter, we found that the
FBI’s practices and policy on overtime in Iraq were not consistent with
applicable statutes, regulations, and FBI policies.




                                     52
                            CHAPTER SIX:
             ANALYSIS OF FBI OVERTIME PRACTICES IN IRAQ

       As demonstrated above, prior to the initiation of this investigation the
FBI adopted a practice of permitting, with rare exception, all employees
deployed to Iraq to report 16 hours of work per day, 7 days a week regardless of
the actual time they worked. This de facto policy was consistent with a stated
goal of maximizing the compensation of FBI employees who volunteered for this
duty. In this chapter we analyze whether the FBI’s pay practices were
consistent with applicable statutes, regulations, and FBI policies. We also
assess the adequacy of the supervision and guidance provided to FBI
employees on these pay practices, and address accountability for the
deficiencies in FBI practices.


I.    Consistency with Statutes, Regulations, and Policies

      A.    Whether the FBI Allowed Employees To Claim Overtime for
            Non-Work Activities

      We found that by allowing agents to claim overtime on the basis of a 16-
hour work day, the FBI permitted agents to claim overtime for activities that
are not compensable under federal regulations and FBI policies, such as time
spent eating, exercising beyond 3 hours per week, commuting, socializing, and
“standing by.”

            1.    Eating

      As detailed in Chapter Two, under the Federal Employee Pay Act (FEPA)
regulations and the FBI’s MAOP, employees cannot be paid for mealtime unless
they are “interrupted by a call to duty” or perform “substantial labor” during
the meal. Nevertheless, the FBI consistently disregarded this limitation and
paid FBI employees overtime for time spent at meals. During the scheduled
16-hour workday, most FBI employees took breaks for at least one meal, and
sometimes more. In many cases, mealtimes lasted an hour or more and were
not interrupted by a call to duty.

       FBI employees in the United States do not count lunch breaks toward
their ordinary scheduled workday. Thus, a typical FBI support employee
working at FBI Headquarters has a schedule that ends 8 hours and 45 minutes
after it begins, although the employee is paid for only 8 hours (with 45 unpaid
minutes for lunch). The same is true for FBI agents, except that they are
required to work an average of 2 additional hours per day to qualify for their 25
percent availability pay premium.




                                       53
       Unlike work schedules in the United States, the standard 16-hour
schedule in Iraq did not designate any amount of uncompensated time for
meals. FBI employees did not routinely skip all meals during their 16-hour
shifts. Yet, FBI employees claimed the full 16 hours as work, including
mealtimes during those hours.

       The March 2008 Overtime Memorandum condoned this practice by
identifying eating as a compensable “activit[y] conducted during the workday
related to operational readiness.” Yet, this practice violates federal pay
regulations, which specifically provide that federal employees are not paid for
“time available for, or spent, sleeping and eating . . . even where the employee
is required to be on the employer's premises, [unless] substantial labor is
performed in the time set aside for sleeping and eating” or unless the sleeping
or eating is “interrupted by a call to duty.” 5 C.F.R. § 550.112(m)(1).

               2.      Exercising

       As previously explained, the FBI’s MAOP authorizes employees to be paid
for no more than 3 hours of exercise per week. The MAOP also prohibits using
overtime hours for exercising. Yet, we found that the FBI consistently
permitted its agents in Iraq to claim more than 3 hours of exercise per week as
work, and likely paid overtime to its employees in Iraq for time spent
exercising. The March 2008 Overtime Memorandum condoned this practice by
defining exercise as an activity that is compensable because it is “related to
operational readiness,” without regard to the 3-hour limitation. The March
2008 Overtime Memorandum was therefore inconsistent with the FBI’s MAOP
to the extent that it authorized paying overtime to employees for any exercise
time, and to the extent that it authorizes employees to claim more than 3 hours
of exercise per week as regular work time. 56

               3.      Commuting

      As noted in Chapter Two, federal law and FBI policies generally prohibit
paying for commuting time to and from work even if the employee is
temporarily living away from home because of a work assignment. Yet, FBI
employees in Doha were permitted to count approximately 1 hour of
commuting time each way as work time as part of the 12 or 16 hours they
reported each day. None of the exceptions under federal law appear to be
applicable to this travel time, such as arduous conditions or a requirement that
work be performed during the travel.


       56   We do not believe that exercise can be considered a “preshift or postshift activity” for
which overtime can be paid under 5 C.F.R. § 550.112(b)(1), because such activity is not
typically “indispensable to the performance of the [employee’s] principal activities.”




                                                54
       In Mossbauer v. United States, 541 F.2d 823, 825 (9th Cir. 1976), the
court held that an employee who was required to live away from home in order
to facilitate his presence at a remote worksite could not claim reimbursement
for the travel time from his quarters to the workplace if such travel time was
“analogous to a suburban dweller’s daily commuting time.” We are not aware
of any basis on which to distinguish the travel time in Doha from an employee’s
daily commute. Doha is a modern city and is not in a war zone. We concluded
that commuting time in Doha was not compensable as overtime.

             4.    Recreation and Socializing

       Federal regulations permit the FBI to pay overtime for “principal
activities,” defined as “the activities that the employee is employed to perform.”
5 C.F.R. § 112(a)(1). However, FBI employees were permitted to count hours
spent socializing and watching movies toward their 16-hour schedules for
purposes of overtime. These activities would not be compensable as work in
the United States. Indeed, the MAOP specifically prohibits agents from
consuming alcoholic beverages during working hours. MAOP, Pt. 1, § 1-2. We
found no authority for the FBI to make an exception for overseas duty in Iraq.

             5.    Standing By

       As previously noted, federal regulations preclude FBI agents who receive
availability pay from also receiving overtime compensation for standby duty. 5
C.F.R. § 550.186. The reason for this restriction is that criminal investigators
such as FBI agents already receive availability pay for the purpose of ensuring
their availability for unscheduled duty based on the needs of the agency. 5
U.S.C. § 5545(d). It is not within the FBI’s discretion to waive this regulatory
restriction.

      However, FBI employees we interviewed, including CTD Deputy
Assistant Director T.J. Harrington, stated that FBI employees in Iraq were on
continuous standby status, which justified permitting them to claim 16 hours
of work every day, regardless of what they were doing during the standby
status. Yet, we found no authority for the FBI to pay its agents overtime for
hours spent waiting for assignments. Federal pay regulations do not permit
the FBI to pay its agents overtime for standby duty.

      The analysis is more complicated with respect to non-agent employees
such as Intelligence Analysts and other support personnel. These employees
may receive overtime pay for standby duty, but only if they were restricted to
a designated post with limitations on their activities “so substantial that the
employee cannot use the time effectively for his or her own purposes.” 5
C.F.R. § 550.112(k)(1). As noted above, however, federal regulations stipulate
that mere geographic isolation, such as an employee stationed in a remote
wildland or on a ship at sea, is not sufficient to satisfy this condition. 5 C.F.R.


                                        55
§ 550.112(k)(2). An employee does not qualify for standby pay if he is allowed
to leave his designated post, even if he is required to remain within a call-
back radius. 5 C.F.R. § 112(l)(1).

       We did not have sufficient evidence regarding the restrictions on each
non-agent employee’s activities to determine whether such restrictions were
so substantial that the employees could not have used the time for their own
purposes. Yet, to the extent that such non-agent employees were permitted
to spend some of these “standby” hours away from their work stations, such
as in their quarters, at the club, or shopping at the PX, these hours would not
be compensable as overtime. 57

       B.      Whether Overtime Was Properly Scheduled in Advance

      As noted in Chapter Two, under federal statutes and regulations federal
agents who receive availability pay may receive overtime pay only for “overtime
work which is scheduled in advance of the administrative workweek.” 5 U.S.C.
§ 5542(d)(1); see also 5 C.F.R. §§ 550.111(f)(1) and 550.182. The FBI’s MAOP
further requires, as a prerequisite to paying overtime, that the Special Agent’s
supervisor provide the agent with a written work schedule in advance of the
administrative workweek that specifies the days and hours that the agent will
be working. MAOP Pt. 1, § 8-2.1.1(1). In the absence of a written schedule, the
employee is not eligible to be paid overtime and must instead be credited with
availability pay hours. MAOP, Pt. 1, § 8-2.1.1(4). Moreover, the specific hours
that have been scheduled ahead of time are the only hours that can be
compensated as overtime. MAOP, Pt. 1, § 8-2.1.1(7).

       Because federal pay laws and regulations require that overtime for FBI
agents be “scheduled in advance,” this obligation is not discretionary for the
FBI. However, we found no evidence that specific overtime hours for FBI
agents in Iraq were ever formally scheduled in advance until March 2008, after
this investigation began, when the FBI explicitly stated that personnel assigned
to Iraq and Afghanistan were scheduled to work 7 days a week for a specific
16-hour schedule. 58

      The requirement that a written work schedule be provided to the agent in
advance of the workweek is found in Part 1 of the FBI’s MAOP, Section 8-2.1.1,
and the FBI can presumably modify it. However, we found no evidence that the

       57 FBI policy could legally be modified to authorize agents to receive AVP credit (but not

overtime) for time spent standing by.
       58  The 2005 Overtime Memorandum stated merely that FBI employees “usually” worked
those hours. The pay sheets did not purport to schedule overtime in advance but rather
sought merely to show employees how to report their time, using a 16-hour schedule with
particular starting and ending times as an example.




                                               56
FBI either modified this requirement or complied with it. The ASD
Memorandum, which was issued in March 2003, referred to this requirement
and provided examples and explanations of how employees would be
compensated. However, we found no evidence that the CTD ever actually
implemented or enforced this requirement in Iraq. Even the 2008
memorandum contains no requirement of a written schedule provided to
agents in advance.

       Moreover, even assuming that the FBI’s de facto 16-hour, 7-day schedule
had satisfied the requirement that overtime be “scheduled in advance,” many
FBI agents in Iraq did not work this schedule, and the FBI could not
permissibly have compensated them for the maximum 62 hours per week of
overtime. The evidence is clear that many agents worked different hours than
those specified in the FBI’s generic 16-hour schedule, that many agents’ hours
varied from day to day and week to week, and that many FBI employees in Iraq
did not work 16 hours per day, every day of the week. Federal law and
regulation only permits agents to be paid overtime for work actually performed
during the specific hours on the specific days that were scheduled in advance.
If other work is actually performed, it is unscheduled overtime and must be
credited as availability pay.

      For example, FBI employees were often required to work overnight in the
communications room in Baghdad. That employee’s hours would not have
been encompassed in the generic 16-hour schedule, and therefore (if the
employee was an agent) the hours outside that schedule would be compensable
only as availability pay credits. Likewise, agents assigned to the military base
north of Baghdad worked many nighttime hours falling outside the particular
hours specified by the FBI as its generic 16-hour “schedule” and by law could
be reimbursed with availability pay credits only, not with overtime pay.

        A different problem resulted from the fact that FBI employees did not
consistently work 16 hours every day. Many FBI employees told us that their
actual hours varied widely from day to day according to the requirements of
their assignments and events in Iraq, although they said that 16 hours was a
reasonable “average” of their hours over the course of their deployment. Even
if is true that they worked on average 16 hours each day – and the evidence for
many FBI employees indicated otherwise – we found no authority for FBI
employees to “average” their time in this manner for purposes of claiming
overtime pay. Agents may only claim overtime hours on a particular day for
the hours that were both scheduled in advance and actually worked. 59
       59 The same problems exist with regard to night differential pay. The night differential

premium (10 percent of the basic pay rate) is available for all regularly scheduled work between
6:00 p.m. and 6:00 a.m. The FBI apparently paid all employees in Iraq this differential for 5
hours every day. However, to the extent that the employee worked fewer than 16 hours on a
particular day, or worked different hours than the exact hours specified in the FBI generic
(Cont’d.)


                                              57
      To the extent that an FBI agent’s workload in Iraq was so unpredictable
from day to day that an accurate schedule could not be prepared in advance,
and the agent worked overtime hours that were not scheduled, the FBI could
not legally pay overtime for such hours. Conversely, if an agent worked fewer
hours than he was scheduled for in advance, he could not be paid overtime for
the hours he did not work. These limitations not only appear in the FBI’s
MAOP, but are also mandated under statute and regulation for any federal
criminal investigator receiving availability pay. 5 U.S.C. § 5542(d)(4); 5 C.F.R.
§§ 550.111(f)(1) and 550.182(b).

       The ASD Memorandum, which was issued to all FBI divisions on
March 24, 2003, provided an accurate road map to compliance with the
requirements for Scheduled Overtime for agents. Among other things, it stated
clearly that “a written schedule must be formulated and communicated to SAs
in advance of the administrative workweek.” It explained with examples how
hours worked each day would be credited toward regular time, availability pay
hours, and overtime. Yet, we were not provided with an adequate explanation
why CTD simply ignored the instructions in the ASD Memorandum in Iraq.

      In sum, the one-size-fits-all, generic schedule adopted by the CTD for FBI
agents in Iraq did not comply with FBI policy or the law. The CTD’s attempt to
award its Iraq agents with the “maximum permissible compensation under law
and regulation,” as stated in the overtime memoranda, was contrary to law,
regulation, and FBI policy.

      Having found that, we recognize that the availability pay system was
designed for domestic law enforcement and not for the conditions under which
FBI agents served in Iraq and Afghanistan. The availability pay system is
essentially based on the premise that over the course of a year the demands on
a criminal investigator to work unscheduled overtime will average out to
approximately 10 hours per week, and that beyond these amounts, additional
overtime should be scheduled in advance. Circumstances in Iraq and
Afghanistan may have been inconsistent with this premise, particularly if the
actual demands on an agent’s time in those countries were too unpredictable to
permit reasonably accurate scheduling of overtime hours in advance of the
workweek.

      Yet, the FBI did not address this problem or seek an exemption from the
relevant availability pay constraints for agents serving in these countries. The

schedule, the night differential was improperly paid. Again, there is no authority to average
time over different days for purposes of calculating the night differential. If an agent is
scheduled for particular hours, but actually keeps working until 3 hours after his scheduled
stopping time, the agent may not receive overtime pay or night pay for the unscheduled hours.
The agent may only receive availability pay credit for those hours.




                                             58
restrictions on paying unscheduled overtime to criminal investigators have a
statutory source and cannot be ignored. We also note that it was possible to
obtain statutory waivers of certain pay regulations in other contexts. For
example, the Department has obtained congressional waivers of the statutory
annual premium pay limitations in 5 U.S.C. § 5547 for employees serving in
Iraq. PL 109-13 § 1008 (2005); PL 109-163 § 1105 (2006). But the FBI did not
do so in this case, and instead simply ignored the law.

       A different analysis applies with respect to FBI non-agent employees who
were not “criminal investigators” receiving availability pay. As previously
noted, under 5 C.F.R. §§ 610.111 and 610.121(b), the FBI is generally required
to schedule each employee’s administrative workweek, including regularly
scheduled overtime, “so that it corresponds with the employee’s actual work
requirements.” Likewise, the FBI’s MAOP requires that overtime hours be
scheduled in advance for non-agent employees as well as for agents. MAOP Pt.
1, § 8-2.1(8). Yet, we found no evidence that overtime hours for non-agents
were explicitly scheduled in advance prior to the blanket generic schedule
announced in the March 2008 Overtime Memorandum.

      Unlike the case with FBI agents who receive availability pay, the
regulations require that non-agents be paid for any overtime hours they are
required to work, regardless of whether the hours were scheduled in advance.
See 5 C.F.R. §§ 610.111(b) and 610.121(b)(3). Therefore, the FBI’s failure to
schedule overtime for non-agents did not mean that the FBI lacked authority to
pay such employees for the overtime hours they were required to work,
assuming that the overtime was officially ordered and approved and employees
were engaging in compensable activities during that time. 60 Yet, as discussed
above, we found evidence that FBI support employees did not actually work 16
hours per day, each day, and that prior to 2008 they were paid overtime for
those hours nonetheless.

      C.       Whether the FBI Properly Ordered and Approved Overtime

       A federal statute also requires regularly scheduled overtime to be
“officially ordered and approved,” and federal regulations require that the
approval be memorialized in writing by an appropriate official. 5 U.S.C.
§ 5542(a); 5 C.F.R. § 550.111(c). In addition, the FBI’s MAOP requires that any
request for scheduled overtime for Special Agents include an explanation of
why supervisors could not rely on Availability Pay and/or increased staffing
instead of overtime. MAOP, Pt. 1, § 8-2.1.1. The MAOP also requires that the
FBI’s Finance Division prepare a financial impact analysis in connection with
any request for Scheduled Overtime for Special Agents. Id.


      60   The FBI sent substantially more agents to Iraq than non-agent employees.




                                             59
      We concluded that the 2003 Overtime Memorandum was approved by
Deputy Director Gebhardt in March 2003 and that it satisfied the requirement
that scheduled overtime be approved in writing. Although we could not locate
a signed version of the 2003 memorandum, several subsequent FBI
documents, including the ASD Memorandum, the 2005 memorandum, and the
2008 memorandum, stated that Gebhardt approved the 2003 memorandum at
the time. 61

       The 2003 Overtime Memorandum was never “uploaded” into the FBI’s
computer system for dissemination throughout the FBI. However, on
March 24, 2003, the ASD Memorandum was issued for the purpose of
“[a]dvis[ing] that scheduled overtime (SOT) was approved for Special Agents and
support employees performing work in command posts in connection with the
[Iraq] matter.” It therefore appears that the ASD Memorandum was the vehicle
for disseminating the decision approving overtime for the Iraq mission, even
though the decision itself was embodied in the 2003 Overtime Memorandum
issued a few days earlier. 62

       Although the 2003 Overtime Memorandum satisfied the writing
requirement for approving scheduled overtime, it does not appear that the CTD
satisfied the other requirements in the FBI’s MAOP for approving scheduled
overtime. We found no evidence that anyone in the CTD ever explained why
availability pay hours or additional staffing could not accomplish the FBI’s
mission in Iraq, as is required by the MAOP. 63 The only financial analysis we
found was a set of calculations in the 2005 Overtime Memorandum, prepared
more than 2 years after overtime had actually been approved, that contained
errors and inconsistencies. There is also no evidence that the 2005 financial
analysis was ever considered as part of a decision to authorize scheduled
overtime, as contemplated under the MAOP.

      We believe that the CTD could have justified scheduled overtime for
employees in Iraq under the procedures and criteria required by the MAOP.
Given that the financial impact of the FBI’s decision to approve blanket

       61  For Special Agents the authorized official under the MAOP is the Executive Assistant
Director for Administration or higher-level FBI official. As Deputy Director, Gebhardt was
authorized to order and approve overtime.
       62 T.J. Harrington, the former Deputy Assistant Director for the CTD, told us that

although there was no question overtime had been approved, he had never seen the 2003
Overtime Memorandum until we showed it to him.
       63  The 2003 Overtime Memorandum contains a general statement that overtime was
needed because personnel would be “tasked to dedicating even more work hours to
investigative efforts.” We do not consider this statement to satisfy the MAOP requirement for
an explanation of why availability pay hours or additional staffing could not accomplish the
FBI’s purposes.




                                              60
overtime ran into the tens of millions of dollars – far greater than for ordinary
requests for scheduled overtime such as those a field office might make in
connection with an important investigation with urgent and immediate staffing
demands – we believe that the FBI should have complied with the analytical
and procedural requirements of the MAOP.


II.    Whether the FBI Improperly Changed its Employees’ Official
       Workweeks in Order To Award Sunday Pay

       The FBI instructed employees deployed to Iraq to change their “official”
workweek from Monday-through-Friday to Sunday-through-Thursday during
their deployment. The Sunday-through-Thursday shift is shown as one of the
illustrative shifts in the pay sheets included in the pre-deployment handbook.
Because of that change, employees increased their salary by qualifying for
extra Sunday differential pay. We calculated that over a 90-day deployment, a
typical GS-13 step 5 employee who switched to a Sunday-through-Thursday
workweek in Iraq would earn approximately $1,000 more (depending on the
employee’s base salary) than an employee who kept his Monday-though-Friday
workweek, even if they worked the same number of hours.

      Federal regulations provide that the basic workweek is scheduled on 5
days, Monday through Friday if possible, and that additional days scheduled in
advance are overtime. 5 C.F.R. §§ 610.111(a)(2) and 610.121(a)(2). If the
needs of an agency require that an employee’s basic workweek include a
Sunday, the employee is entitled to receive a 25 percent premium for up to 8
hours of Sunday work. However, under the FBI’s MAOP, if the employee’s
basic workweek is changed solely at the request of and for the benefit of the
employee, Sunday pay is not available. MAOP, Pt. 1, § 20-8(2).

       Because the FBI anticipated that agents would be working 7-day
workweeks, we found that the FBI’s practice of approving a schedule change to
a Sunday-to-Thursday schedule was meaningless from a practical standpoint
and served only one purpose: to enable all employees to claim Sunday
differential pay in addition to the overtime they would be earning for working 7
days a week. 64 We believe that shifting the basic workweek to include Sunday
violated 5 C.F.R. § 610.121(a)(2), as well as the FBI’s own MAOP because it did
not serve the needs of the FBI in any way.

      We also found that the March 2008 Overtime Memorandum did not
correct this problem. It stated that the workweek begins on Monday, which

       64 In Iraq, the weekend is Friday and Saturday and Sunday is a regular workday.
However, this was not a genuine rationale for shifting the agents’ regular workweeks to include
Sunday, because all agents were expected to work 7 days a week.




                                              61
would suggest that Sunday is not part of the 5-day basic workweek. If so, FBI
employees in Iraq should get overtime for Sunday but not the 25 percent
Sunday pay differential. As noted above, agents cannot claim Sunday pay for
hours that are reimbursed as overtime. However, the March 2008 Overtime
Memorandum contradicts its own instructions by stating that agents are
authorized compensation for 8 hours of Sunday pay.


III.   Estimate of the Total Cost of Improperly Paid Overtime and Sunday
       Pay

      As previously noted, it is impossible to determine the precise number of
hours that any particular FBI employee actually worked in Iraq, which prevents
us from precisely calculating the total cost of improperly paid overtime and
Sunday pay for FBI employees in Iraq. However, a conservative estimate of
excess overtime paid can be calculated by comparing the hours that FBI
employees reported in 2008 (after the practice of uniformly reporting 16 hours
of work every day was abandoned) with the hours reported before 2008.

       The quarterly audits for Iraq calculated that in 2008 FBI employees
claimed an average of 100 to 112 hours of overtime each pay period. Using the
midpoint (106 hours) as an average for the number of hours that should have
been reported prior to 2008, we estimate that the average FBI employee
reported 18 more hours per 2-week pay period (124 hours minus 106 hours)
prior to 2008, when the practice of uniformly reporting 16 hours a day, every
day, was abandoned. This means that, prior to 2008, a typical FBI employee
collected roughly 117 hours (18 times 6.5 pay periods) more in overtime pay
over a 3-month tour. Therefore, using a “typical” GS-13, step 5 employee from
2005, compensated at $39.12 per hour, this translates to $4,577 additional for
each employee. Multiplying this figure by approximately 1,400 tours during
2003-2007, we estimate that the FBI paid roughly $6.4 million in excess
overtime for employees in Iraq.

       We recognize that this estimate is an approximation. In responding to
this estimation, the FBI noted that the underlying methodology assumes that
in every year from 2003 to 2007, agents actually worked the same average
number of hours per day that they reported in 2008. The FBI argues that its
employees worked longer hours, on average, in the early years of the mission in
Iraq. However, as noted above, the FBI was not able to provide any
quantitative information regarding the number of hours agents actually worked
during 2003-2007, although we concluded on the basis of interviews that few
employees averaged 16 hours per day during their deployments. We also
recognize that we cannot state with precision whether the average hours that
employees reported in 2008 was representative of time FBI employees actually
worked during 2003-2007.



                                      62
      Yet, we believe that our methodology for estimating the total of excess
overtime payments is conservative and likely understates the amount of
improper overtime for a variety of reasons. First, as noted above, until July
2008 the FBI’s Iraq overtime policies inappropriately permitted agents to claim
time spent for meals and exercise as overtime. The hours reported in the
audits for the first two quarters of 2008 therefore likely included hours spent
eating and exercising and likely overstated the number of hours that agents
were actually working. In addition, the FBI has still never clarified that time
spent “standing by” cannot be claimed by agents as overtime, and it is
therefore likely that the 2008 audits include many hours in this category. In
sum, we believe that because the FBI still has not fully corrected its policies
regarding overtime prior to the audits, the hours reported in 2008 included
hours that are not properly claimed as work.

      This estimate is also conservative because it calculates the amount of the
overpayment as if all employees were Special Agents who claimed 124 hours
overtime per pay period prior to 2008. In fact, a significant minority of FBI
employees in Iraq were non-agents who claimed 144 hours per pay period for
overtime prior to 2008. Non-agent employees therefore were claiming on
average roughly 38 hours of overtime per pay period more than they had
previously claimed, rather than the 18 hour difference used in the calculations
above.

      Finally, as shown on Table 3, we estimated that the FBI paid
approximately $1,017 during a 3-month tour to a typical employee in Iraq for
Sunday pay prior to 2008. Multiplying this figure by 1,400 tours suggests that
the FBI overpaid its agents approximately $1.4 million for Sunday pay from
March 2003 to October 2007.


IV.   Guidance and Supervision Provided to FBI Employees Deployed to
      Iraq

       We concluded that the FBI provided inadequate and inaccurate guidance
to its employees in Iraq regarding how they should report their hours of work.
Although employees sent to Iraq often asked – especially in the early days of
the Iraq mission – what activities they could count as “work” and what
activities they could not (that is, what activities they could get paid for and
what activities were personal and not part of work hours), they initially received
no guidance or training.

      The question of what activities are compensable as work was not
discussed in the 2003 Overtime Memorandum that authorized overtime in Iraq.
Nor was this issue addressed in the materials that the CTD used to prepare
employees for the Iraq deployments, such as the pay sheets that listed the
hours the agents were assumed to be working, the pre-deployment handbook


                                       63
that was given to all employees slated to work in Iraq, or the FBI’s Intranet that
essentially contained the same information as the pre-deployment handbooks.
Neither the ASD Memorandum, the 2005 Overtime Memorandum, nor the 2007
overtime e-mail cast any additional light on this issue.

      In addition, employees who asked during pre-deployment training what
counted as work were never given clear answers. Instead, trainers sidestepped
the questions by telling employees to bill the hours they worked, without
describing what counted as work. We believe these responses contributed to
the tacit understanding that all employees could bill 16 hours a day, 7 days a
week, regardless of the time they actually spent working.

       In fact, the first formal guidance about what activities counted as “work”
was provided in the March 2008 Overtime Memorandum, 5 years after the CTD
starting sending employees to Iraq, and after this investigation had begun.

       However, even this guidance was insufficient and incorrect. The March
2008 Overtime Memorandum stated that FBI employees could count as work
“activities conducted during the workday related to operational readiness, such
as eating, exercising, training and the preparation of gear and equipment for
the following workday.” That memorandum, which was prepared without
consulting with the FBI’s OGC, was wrong. Moreover, to the extent that the
CTD was stating that all mealtimes and unlimited exercise sessions counted as
work, the CTD lacked authority under federal law and the MAOP to make such
a commitment. In addition, the March 2008 Memorandum failed to advise that
certain activities, such as socializing at cocktail parties, cannot be claimed as
work time. It also provided no clarification on whether employees can claim
overtime for hours in which they are merely “standing by.”

       In essence, the CTD’s March 2008 Overtime Memorandum appears to
have accepted a “socks on/socks off” argument (made repeatedly by many
employees who worked in Iraq, as well as by Harrington), under which virtually
every waking hour should be counted as work simply because even non-work
activities (such as eating and exercising) help employees survive the
unrelenting and stressful environment in a war zone. Certainly, employees
need “down” time to relax and recover, but simply because that down time
helps employees adapt to a difficult environment does not convert it into paid
work or overtime. If that were true, then any time – even time spent sleeping –
could be paid work time.

      We recognize that the FBI’s failure to comply with applicable laws and its
own policies in the early stages of the Iraq mission is understandable to some
extent due to the crisis atmosphere. However, as detailed in Chapter Seven, by
the time the Iraq mission began in 2003, FBI agents had already been in
Afghanistan for a year, so the issue of compensating agents deployed to a war
zone was not new. Moreover, the FBI had 5 years since the invasion of Iraq to


                                       64
establish lawful overtime procedures and it failed to do so prior to the initiation
of this investigation.

      We had difficulty determining precisely which FBI officials were
responsible for the deficiencies in the FBI’s overtime practices in Iraq. Former
Deputy Director Gebhardt apparently approved the original 2003 memorandum
authorizing overtime. There is no evidence that the FBI performed the financial
analysis required under the MAOP before this decision. Moreover, even if a
financial analysis had been performed at the time, it would have become
obsolete shortly thereafter when the United States invaded Iraq and the FBI’s
mission expanded significantly

      But the 2003 memorandum did not purport to establish schedules for
individual employees as required under statutes and regulations, or instruct
them on how to report their time. The ASD Memorandum correctly identified
the requirement for such schedules, but its instructions were never
implemented. Responsibility for this omission was difficult to determine.

      Harrington told us that the FBI’s practice of allowing agents to report up
to 16 hours per day was approved by the Assistant Directors for CTD, and that
Mefford, the Assistant Director when the Iraq mission began in 2003, was
“pretty adamant to make sure the guys got paid every single dime possible
under the circumstances.” We believe this philosophy led to the uniform
practice of reporting 16 hours a day, 7 days a week. We also believe that the
Assistant Directors for CTD and Deputy Assistant Director Harrington were
ultimately responsible for this practice becoming the standard for all FBI
agents in Iraq. 65

       Yet, many of the deficiencies in the FBI’s overtime practices in Iraq were
ratified with the 2008 memorandum, which was issued after this investigation
began and was approved by Arthur Cummings (Executive Assistant Director of
the National Security Branch) and other CTD officials. 66 Ultimately, these
approving officials bear some responsibility for these deficiencies.

      Significantly, we found no evidence that any of these officials consulted
with the FBI OGC at any time from 2003 until mid-2008 regarding the law and
FBI policy for what constituted compensable work, or the requirements for
paying overtime in Iraq. We found this omission to be inexplicable.



       65 The Assistant Directors for CTD during the 2003-2008 time period were Larry

Mefford, John Pistole, Gary Bald, Willie Hulon and Joseph Billy Jr. Michael Heimbach, the
current CTD Assistant Director, was appointed on April 25, 2008.
       66   The National Security Branch oversees the CTD and other divisions.




                                              65
       Harrington told us that overtime was discussed and approved at upper-
level management meetings, including some attended by FBI Director Mueller
and General Counsel Caproni. However, the problem was not with the
approval of the concept of paying overtime to FBI employees in Iraq; rather, it
was with devising the proper procedures to ensure compliance with the
requirements under federal law and FBI policy. This was a CTD responsibility.
Neither Director Mueller nor General Counsel Caproni had any reason to
expect that the CTD would approve the payment of overtime on the basis of a
generic 16-hour, 7-day schedule regardless of the actual hours that employees
were working, or that the CTD would fail to adopt or implement proper
procedures for scheduling and reporting the overtime that had been approved
in concept.




                                      66
                                    CHAPTER SEVEN:
                                   FBI IN AFGHANISTAN

       In February 2008, several months after the initiation of this
investigation, the FBI and OIG received an anonymous complaint about FBI
activities in Afghanistan. The complaint alleged that:

       [T]he FBI is so overstaffed in Kabul . . . [that] we are stumbling over each
       other and 10 do what in reality 2 agents can do. Even though we don’t
       have enough to keep us busy, we are mandated to claim that we are
       working 7 days a week 16 or more hours a day. I know it is a falsehood,
       but I was forced to go along with the rest of the crowd. We get paid each
       day to workout as much as we want. We get paid to drive over to the
       military bases and shop for souvenirs, drink coffee etc. We get paid
       when we go to marine happy hours, etc. I know this is not right, but the
       management has instructed every employee to claim the same regardless
       of our actual hours. We could barely justify 8 hours and even then, it
       wouldn’t take us all here.

      As discussed in this chapter, we therefore reviewed FBI pay practices in
Afghanistan and determined that many of the same deficiencies in pay
practices that we found in Iraq also occurred in Afghanistan.


I.     Background

       The FBI deployed many employees to Afghanistan and these employees
have served approximately 596 tours in Afghanistan since 2001. 67 Most FBI
employees were deployed to Afghanistan for a period of 60 to 90 days. 68 FBI
agents were assigned to interrogate detainees, participate in certain military
operations comparable to the domestic execution of search warrants and crime
scene processing, collect fingerprints and other identification information about
detainees or suspects, and investigate bombings and other crimes. The agents
generally lived and worked on military bases scattered around the country.
FBI employees in Afghanistan reported to an On-Scene Commander for most of
the period since 2001, but as in Iraq, prior to the 2007 e-mail they reported
their hours to timekeepers in their home offices in the United States.




       67 The FBI could not provide us with the number of employees sent to Afghanistan,

only the number of total tours FBI employees served. Because some employees served more
than 1 tour, the number of employees would be somewhat less than 596.
       68   According to the FBI, the typical deployment to Afghanistan was recently increased.




                                               67
II.    FBI Memoranda, Guidance, and Policy

      On September 13, 2001, 2 days after the terrorist attacks in New York
and Washington, FBI Deputy Director Thomas J. Pickard approved a
memorandum from the CTD seeking authorization for scheduled overtime for
FBI Special Agents working on matters related to the attacks of September 11,
2001. On September 18, 2001, the Administrative Services Division (ASD) of
the FBI issued a memorandum for distribution to all employees stating that
scheduled overtime had been approved for employees working in support of the
September 11 investigations. The FBI relied on these memoranda as authority
to pay overtime for agents in Afghanistan.

       These memoranda, which were prepared in the immediate aftermath of
the September 11 attacks, did not include any guidance on the type of
activities that are compensable with overtime pay. The September 13, 2001,
memorandum stated that the Finance Division had determined that it was
unable to estimate overtime costs through the end of September 2001.

      The FBI did not provide any other documents addressing the approval of
overtime for employees in Afghanistan until 2005. As noted in Chapter Four,
the 2005 Overtime Memorandum, the 2007 overtime e-mail, and the March
2008 Overtime Memorandum all stated that they applied to both Iraq and
Afghanistan.


III.   Overtime Claims by FBI Employees in Afghanistan

      We reviewed the hours billed by employees working in Afghanistan
during 2007. Out of 103 employees deployed to Afghanistan that year, all but
2 reported (or said they intended to report) the maximum 16 hours per day, 7
days a week. 69

      However, unlike in Iraq, it does not appear that the 16-hour, 7-day
standard schedule was adopted as a uniform standard from the beginning.
The FBI conducted a quarterly review of the performance and output of FBI
employees in Afghanistan in December 2005, in which it examined the hours
reported by seven employees in Afghanistan. This review found that FBI
employees in Afghanistan had billed anywhere from 0 to 126 hours of overtime
per pay period, and that only 1 of the 7 employees billed the same amount 2
weeks in a row. Both figures, according to the FBI supervisor who ordered the


       69  As in Iraq, some employees in Afghanistan reported fewer than 16 hours per day for
7 days a week, but they later told us that they intended to report the full 16 hours, and that
and differences were due to bookkeeping errors.




                                              68
review, were evidence that employees were actually working the hours they
billed, and not just routinely billing the maximum amount possible.

       However, the FBI initiated another review in March 2006 examining the
hours billed by seven FBI employees in Afghanistan who were different from
those reviewed in December 2005. This time the review found that all 7 were
billing 16 hours a day, 7 days a week, without variation. The FBI supervisor
told us that this finding was particularly galling to him because he had
received reports that one of the seven had been spending his days playing video
games.

      In an attempt to follow up on the findings of this review, in March 2006
the supervisor e-mailed the On-Scene Commander in Afghanistan asking for
more information. The On-Scene Commander replied that agents were working
more than 16 hours a day and that any effort to audit overtime was a “non-
issue” that would only create an “unnecessary morale issue.” Furthermore, the
On-Scene Commander wrote, any review of hours worked would pose
problems:

      If we want people to document their “working” hours, then clarification
      will have to be provided by HQ. . . . For example, when I stay up until
      5:00 a.m. waiting . . . [for a dangerous assignment] to be approved, do I
      stay on the books that entire time, or do I sign out if I fall asleep for an
      hour or two. If I then get up at 7:00 a.m. to attend [a] briefing, but take
      a nap that afternoon, do I sign in and out. When an agent goes on an
      overnight . . . [assignment], is he on the books the entire 24/7, since they
      rarely get the opportunity to sleep (nor do they necessarily want to, as
      they are more concerned with staying alive.) When the air raid sirens go
      off in the middle of the night, and the agents scramble to the shelters
      and sit for two hours – should they sign in and out? There are so many
      scenarios that would require clarification from HQ, that it seems
      advantageous to all of us to set the hours as [the particular hours
      specified in the generic FBI 16-hour schedule], and then expect the
      agents to sign in and out for those hours. . . . Rather than having the
      agents try and “accurately” track their hours, a better fix may be to have
      HQ bless this shift, and then appreciate the bargain the Bureau is
      getting from everyone over here.

      We found that the review begun in March 2006 was never completed and
no further quarterly reviews were attempted until June 2008. In June, as
required by the March 2008 Overtime Memorandum, the CTD resumed
quarterly audits. As previously summarized in Table 2, the audits for
Afghanistan indicate that on average FBI employees in Afghanistan claimed
between 108 and 114 hours of overtime per pay period in 2008. In 2007,
before the FBI told its employees that they should only claim the hours they
actually worked, FBI Special Agents in Afghanistan claimed 124 hours of


                                       69
overtime per pay period, and non-agent FBI employees claimed 144 hours of
overtime per pay period, both based on 16-hour, 7-day schedules.

       The FBI was unable to provide us a precise dollar figure for the overtime
or other forms of premium pay paid to FBI employees in Afghanistan. We were
not able to construct an estimate of the total cost of premium pay in
Afghanistan because there was more variability in the lengths of deployments
to Afghanistan and the practice of uniformly reporting 16 hours every day
apparently did not catch on in Afghanistan until as late as 2006. Instead, we
constructed an estimate for a single year (2007), based on the FBI’s statement
that 103 employees were deployed to Afghanistan that year and our finding
that virtually all FBI employees were claiming 16 hours of work per day, 7 days
a week by that time. Based on these calculations, we estimated that in 2007
alone the FBI paid its employees in Afghanistan approximately $5.3 million in
premium pay, of which approximately $3.4 million was overtime pay.

       Although our review of overtime in Afghanistan was limited, we found
evidence that agents were not working exactly 16 hours per day every day. For
example, the quarterly reviews conducted by the FBI showed that in 2005 and
2008 there was significant variability among employees and workdays in the
amount of overtime worked in Afghanistan. Some employees claimed no
overtime at all in 2005. According to the FBI audits, in 2008 the average
amount of overtime claimed by individual FBI employees in Afghanistan ranged
from a low of 48.8 hours per pay period to a high of 144 hours. We are not
aware of any change in the assignments or management of FBI employees in
Afghanistan in 2006 or 2007 that would have resulted in all employees actually
working exactly 16 hours every day, 7 days a week throughout their
deployments. Therefore, we do not believe that the practice of reporting time
uniformly according to this schedule, which apparently began in 2006,
reflected an accurate statement of the amount of time each FBI employee
worked each day.


IV.   Conclusions about Overtime in Afghanistan

       We concluded that the same deficiencies in FBI pay practices that we
identified in Iraq existed with respect to employees serving in Afghanistan,
particularly since 2006. The FBI allowed agents to claim overtime pay on the
basis of a de facto standardized 16-hour, 7-day schedule that did not
necessarily reflect the hours each employee actually worked every day. This
practice effectively allowed agents to claim time for activities that are not
compensable as scheduled overtime, which violated relevant statutes,
regulations, and FBI policies.

     It is understandable that in the weeks and months immediately after the
September 11 attacks the FBI’s priority was to quickly get its employees to


                                      70
work on the response to the attacks and on the expanded counterterrorism
mission of the FBI, and that compliance with the procedural requirements for
paying overtime was a secondary consideration. However, the FBI has been in
Afghanistan for 7 years, and it has had abundant opportunities to revise its
pay practices to comply with the requirements of law. Yet, we found that FBI
pay practices in Afghanistan became even less consistent with legal
requirements beginning in 2006, when employees began uniformly reporting
16-hour days.




                                     71
                                 CHAPTER EIGHT:
                        RECENT MODIFICATIONS OF FBI POLICY

       During the course of this investigation, the OIG shared its legal analysis
of existing FBI policies and practices regarding the payment of overtime with
the FBI Inspection Division and the FBI Office of General Counsel. In an
attempt to address weaknesses in the existing policies, the FBI issued two
additional overtime policies in July and October 2008 for overtime in Iraq and
Afghanistan. 70

I.       The July 2008 War Zone Overtime Policy

       In July 2008 the CTD issued a War Zone Overtime Policy approved by
Executive Assistant Director Cummings and by CTD officials. According to the
Inspection Division, this policy was prepared in consultation with the FBI’s
Office of General Counsel and Human Resources Division. The stated purpose
of the policy was to bring CTD into compliance with Title 5 of the Code of
Federal Regulations with respect to the use of overtime to compensate
employees deployed to war zones.

       The July 2008 War Zone Overtime Policy defined “work” as “any activity
for the benefit of an agency and under the control or direction of the agency.”
It amplified this definition by stating that:

        Work does not include consumption of alcohol while ostensibly engaging
         in liaison activities.

        Travel from temporary lodging to a temporary duty station is not
         compensable as work.

        Activities such as maintenance of living quarters qualify as work in a war
         zone environment where housing and work activities are co-located.

        FBI policy provides for three one-hour exercise periods per week, but the
         senior FBI official in a war zone may extend these periods based on
         extended working hours or arduous conditions. FBI policy prohibits
         overtime compensation for exercise periods.

        Rest and relaxation activities not directly related to operational readiness
         are not compensable as work.



         70   These recent policies were drafted without the knowledge of or prior review by the
OIG.




                                                  72
         Meal breaks are only compensable if the employee is required to perform
          during meal breaks.

The July 2008 War Zone Overtime Policy also stated that overtime must be
approved in writing in advance by an authorized FBI official. It further
provided that:

          Designated employees will be eligible to earn up to six hours of overtime
          (following eight hours regular work and two hours of AVP) and up to 14
          hours on days off. Employees must actually work the scheduled
          overtime hours. Hours may not be averaged over two or more days.


II.       The October 2008 Overtime Memorandum

      On October 6, 2008, the CTD issued another document regarding
overtime (the October 2008 Overtime Memorandum), for the stated purpose of
“provid[ing] guidance and a template for the implementation of the FBI War
Zone Overtime Policy” in Iraq and Afghanistan. This memorandum also stated
that another purpose was “to provide enhanced budget control and work hour
accountability of all deployed personnel.”

       The October 2008 Overtime Memorandum defined work to include “any
or all services or actions performed by an employee at the request of, and
under the control of a supervisor.” The memorandum contained the same
limitations on activities that could be reported as work which appeared in the
July 2008 War Zone Overtime Policy, except that it did not include the
language allowing supervisors to extend the amount of exercise time reportable
as “work” above 3 hours per week, and it extended the permissible “day off”
hours to 16.

       The October 2008 Overtime Memorandum provided also that “all
overtime work must be pre-approved in writing and scheduled prior to any
work being performed.” (Emphasis in original.) It also stated that “[e]mployees
will not be paid retroactively for overtime hours worked.” It provided a
template memorandum for supervisors to use in pre-approving work schedules,
including all overtime.

          The memorandum stated with respect to work schedules:

          For Special Agents, the work schedule should specify eight hours regular
          work, two hours of AVP, and up to six hours overtime for each workday
          (Monday – Friday). For Analysts and Professional Support employees,
          the work schedule should specify eight hours regular work and up to
          eight hours of overtime for each work day (Monday – Friday). For



                                          73
      weekend work (Saturday – Sunday), up to 16 hours overtime per day will
      be scheduled for Special Agents, Analysts, and Professional Support
      employees.

The memorandum further noted that for Special Agents any time worked above
6 hours per day of overtime will “revert to AVP” that is, be credited as hours
against future availability pay obligations. It reiterated that employees may
claim only the overtime hours they actually work, that they may not “average”
their time over multiple days, and that employees are personally responsible for
the accuracy of the data they enter into the time reporting system.

       The October 2008 Overtime Memorandum stated that each employee
should be assigned to a specific 8-hour shift on regular workdays. The
template memorandum for pre-approving overtime shows each employee being
assigned to a specific 8-hour shift, with 2 availability pay hours scheduled for
the first 2 hours at the end of the regular shift. However, unlike work
schedules in the United States, no unpaid time for meals is indicated in the
sample schedule.

       Significantly, the template memorandum indicates that every employee
in Iraq or Afghanistan will be pre-approved to work “up to” 6 hours of overtime
(for Special Agents), or 8 hours of overtime (for other FBI employees) on
weekdays and 16 hours on weekend days. Neither the October 2008 Overtime
Memorandum nor its template for pre-approving overtime appears to
contemplate that there will be any variability in the total amount of overtime
among FBI employees within the relevant category (agents and non-agents).
Moreover, the specific overtime hours that are authorized on any particular day
are not specified.

      Finally, we determined that the Deputy On-Scene Commander in Iraq
issued a memorandum dated October 20, 2008, related to pre-approving
overtime for FBI employees in Iraq during the upcoming pay period. The
memorandum substantially incorporated the template in the October 2008
Overtime Memorandum. The Deputy On-Scene Commander’s memorandum
also contains blanket authorization for every Special Agent to receive overtime
pay for “up to” 124 hours during the pay period (6 hours on weekdays and 16
hours on weekends) and for every other FBI employee to receive overtime for
“up to” 144 hours (8 hours on weekdays and 16 on weekend days). Consistent
with the template, the pre-approved schedule contains no unpaid periods for
meals, even though it contemplates that FBI employees will serve 16 hours of
continuous duty every day.




                                       74
III.   OIG Assessment of Recent Modifications

       We concluded that the July 2008 War Zone Overtime Policy and the
October 2008 Overtime Memorandum have corrected several problems in prior
FBI policies and practices. For example, the October 2008 Overtime
Memorandum appears to correct the problem of improper payment of overtime
for time spent exercising by clarifying that overtime cannot be paid for exercise
and by limiting FBI employees to claiming 3 hours of exercise per week as
regularly scheduled work. In addition, both recent policies explicitly provide
that: “Travel from temporary lodging to a temporary duty station is not
compensable as work.”

       However, we concluded that in several respects the recent policies still
fall short of what is required to fully reconcile FBI pay practices with the law.

       First, the July 2008 War Zone Overtime Policy attempted to correct the
problem of employees claiming mealtimes as work by stating that “[m]eal
breaks are only compensable if the employee is required to perform [work]
during meal breaks.” However, another FBI guidance document appears to
encourage employees to continue to report mealtimes as work. As noted above,
the October 2008 Overtime Memorandum contained a template for pre-
approving employee schedules, including scheduled overtime. Unlike normal
sample work schedules in the MAOP, which are used in the United States, no
unpaid time for meals is indicated in the sample schedules attached the
October 2008 Overtime Memorandum, despite the fact that these schedules
reflect FBI employees working up to 16 hours per day. 71 If employees eat any
meals during their 16-hour shifts, which they often do, and they report their
time consistently with the template, they will be reporting meal times as work.
We believe that this template should be modified to specify a realistic amount
of unpaid time within each work shift for meals (such as one-half hour per
meal), just as FBI work schedules in the MAOP provide for in the United States.

       Second, the July 2008 War Zone Overtime Policy and the October 2008
Overtime Memorandum attempted to correct the problem of employees
receiving pay for time socializing, such as at Saturday evening parties, by
stating that “[t]he consumption of alcohol while ostensibly engaging in liaison
activities” is outside CTD’s definition of work for purposes of earning overtime.
The memoranda also state that rest and relaxation activities “not directly
related to operational readiness” are not compensable overtime. We believe
that these exclusions are too narrow. Socializing and recreation are not
compensable work regardless of whether alcohol is being consumed. In

       71For example, Part 1, Section 8-2.1.1(7) of the MAOP contains two examples of sample
work schedule for Special Agents showing varying amounts of scheduled overtime. These
examples provided the employee with 45 minutes of unpaid meal time on every work day.




                                            75
addition, the language regarding rest and relaxation could be interpreted to
suggest that supervisors could approve these activities for overtime
compensation by drawing some connection between these activities and
“operational readiness.” While rest can always be said to promote operational
readiness, this does not justify claiming rest time as compensable overtime.
FBI employees simply should not claim overtime for socializing, rest, or
recreation activities.

      Third, the July 2008 War Zone Overtime Policy and the October 2008
Overtime Memorandum sought to comply with the requirement that overtime
should be scheduled in advance. The October memorandum therefore
provided a template for use by Deputy On-Scene Commanders to approve
work schedules in advance of each pay period, including individualized work
schedules for each employee.

       However, we are concerned that the blanket approval of overtime
contemplated in the template is not consistent with applicable regulations.
Under the template, the FBI would grant blanket authority to all of its agents
in Iraq and Afghanistan to work “up to” 6 overtime hours per weekday and 16
hours per weekend day, which translates to 124 hours per pay period. Based
on the FBI’s recent overtime audits and our interviews of agents who served
in Iraq and Afghanistan, it is clear that many of the agents do not work that
many hours. As noted above, since the beginning of 2008 FBI employees in
Iraq and Afghanistan have reported on average 100 to112 overtime hours (in
addition to 80 or 100 hours of regularly scheduled work) per 2-week pay
period, which is less than the 124 hours per pay period reflected in the
template. Moreover, some individual employees have averaged far fewer
hours of overtime – as few as 18.7 hours per pay period. Clearly, some
functions being filled in Iraq do not require 6 hours of overtime every day and
16 hours on every weekend day.

       As previously explained, under 5 CFR § 610.121(b)(1), the FBI must
“schedule an employee’s regularly scheduled administrative workweek so that
it corresponds with the employee’s actual work requirements.” Therefore, the
blanket approval of up to 16 hours of work each day, every day, does not
accurately reflect the “actual work requirements” of most FBI employees in Iraq
and Afghanistan. The FBI should require that the work schedules approved in
advance for employees in Iraq and Afghanistan utilize more realistic schedules,
tailored to actual work requirements of individual employees or categories of
employees, rather than a routine blanket approval of “up to” an artificial
maximum number of hours for all employees.

      Fourth, the July 2008 War Zone Overtime Policy and the October 2008
Overtime Memorandum also fail to sufficiently clarify the issue of Sunday pay.




                                       76
Because the regular workweek for agents in Iraq is currently Monday through
Friday, the FBI may not grant Sunday pay for employees. 72

       Fifth, like the March 2008 Overtime Memorandum, the July Policy and
October Memorandum provide no clarification on whether employees can claim
overtime for hours in which they claim they are merely “standing by.” Several
FBI employees cited their “standby” status as a justification for claiming 16
hours of work every day, regardless of what they were doing. In the absence of
clarification, we are concerned that employees are continuing to rely on this
rationale for claiming hours that are not eligible for overtime pay.

      Sixth, like their predecessor memoranda, the recent FBI policies do not
contain any financial analysis supporting the decision to authorize overtime as
required by the MAOP.

       In sum, we concluded that the recent FBI policies, which were issued
prior to the completion of this report and without review by the OIG, do not
fully address the problems in prior FBI overtime compensation practices in Iraq
and Afghanistan.




       72   Going forward, there are some scenarios in which it could be appropriate for the FBI
to shift a particular employee’s work week to include Sunday, if such a shift is for the benefit of
the FBI and not solely for the benefit of the employee. However, such a shift would not be
appropriate for any employee who is scheduled to work a full 8 or 10 hour workday or more on
all seven days of the week, as we understand is the case with most if not all FBI employees in
Iraq and Afghanistan. Shifting to a schedule that includes Sunday for such an employee
would serve no other purpose than to enable him or her to claim Sunday pay and would violate
federal regulations requiring that the regular 40-hour workweek be scheduled on Monday
through Friday if possible.




                                                77
                           CHAPTER NINE:
              OVERTIME CLAIMS AT OTHER DOJ COMPONENTS

      In addition to the FBI, several other DOJ components sent employees to
Iraq and Afghanistan, including the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF); the Drug Enforcement Administration (DEA); and the United
States Marshals Service (USMS). In the course of our investigation, we learned
that these components may also have adopted overtime practices similar to
those of the FBI. We therefore expanded our investigation to review the pay
practices of other DOJ components. We reviewed the T & A forms for most of
ATF, DEA, and USMS employees sent to Iraq and Afghanistan and interviewed
over 20 employees from those components regarding their hours and activities
during their deployments.


I.     Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)

       A.     Background

       ATF began sending employees to Iraq in 2004 and has deployed to Iraq a
total of approximately 145 employees as of June 2008, some more than once.
Most served in 3-month deployments, which varied in size from approximately
4 to 8 employees. Most ATF employees lived in the Green Zone, although at
least four were stationed in Doha, Qatar.

      Many ATF agents worked under the supervision of the FBI’s On-Scene
Commander on one of the task forces described in Chapter Three, such as the
Regime Crimes Liaison Office (RCLO), the Major Crimes Task Force (MCTF), or
the Law and Order Task Force (LAOTF). Other ATF agents worked on
assignments that were not supervised by the FBI, such as serving on the
Combined Explosives Exploitation Cell (CEXC) task force, providing training
courses to Iraqi police officers, and conducting canine patrols for detecting
explosives.

       B.     Pay Practices

      Like the FBI employees in Iraq, ATF employees received overtime,
holiday, night differential, post differential, danger, and Sunday pay. All ATF
employees sent to Iraq were agents who were subject to the availability pay
requirements described in Chapter Three. 73 Accordingly, they had to work 10
hours per day – 8 hours of regular duty and 2 hours of availability pay – before
they qualified for overtime on a regular workday. ATF employees reported their

      73 The provisions of the FBI’s MAOP described in Chapter Three do not apply to the

employees of other DOJ components.




                                            78
hours on T & A forms that generally (depending on the employee’s assignment)
were certified by a supervisor in the United States.

      We reviewed ATF’s policies relating to premium pay. Consistent with
federal regulations, ATF requires that overtime work be authorized in writing in
advance. In addition, ATF policy allows overtime payments only for hours
actually worked. Unlike the FBI, however, ATF permits overtime hours to be
approved retroactively when “compelling reasons make it impossible or
impracticable to authorize overtime in advance.” 74 Like the FBI, ATF pays its
Special Agents a 25 percent premium as availability pay. However, unlike the
FBI, ATF permits agents to get availability pay credit (but not overtime) for
standby hours when the agent is required to be available during a specific time
period on a regular workday, even if no work is actually performed.

      The OIG reviewed all of the time cards submitted by ATF employees in
Iraq and found that most employees claimed and were paid for 15.5 hours a
day, 7 days a week. According to the Chief of ATF’s International Affairs Office,
ATF management allowed its employees to bill no more than 15.5 hours a day,
based on advice from ATF’s Human Resources Division that paying for lunch
was prohibited by federal law. 75

      We interviewed 5 ATF employees who had worked in Baghdad, Doha, or
both for anywhere from 3 to 9 months. Two of the 4 employees who had
worked in Doha said that they worked about 13 to 14 hours a day, 1 said that
he did not remember how many hours he worked in Doha, and the fourth said
she worked about 15 to 16 hours a day.

      The four ATF agents who worked in Baghdad generally reported working
longer hours. 76 One said that he worked 18 hours a day (and sometimes
longer) when he was in Baghdad during the summer of 2004, but that when
assigned to the MCTF in the winter of 2005 he worked approximately 14 to 15
hours a day. Another employee assigned to the RCLO said that he worked
about 12 to 14.5 hours a day. A third agent assigned to Baghdad said he had
worked about 15.5 hours a day, while a fourth said he did not remember his
hours.

       74   We do not believe that it is consistent with federal pay regulations to grant
retroactive approval of scheduled overtime for Special Agents. Special Agents receive
availability pay specifically for the purpose of compensating them for unscheduled overtime
hours; they should only receive availability pay credits for such time.
       75 Although ATF employees supervised by the International Affairs Office routinely

claimed 15.5 hours per day, some ATF employees supervised by other ATF offices claimed 12 to
14 hours. We were unable to tell if those other employees billed for lunch.
      76 The numbers do not add up to five employees because some employees worked in

both Doha and Baghdad.




                                              79
       However, the hours actually listed by ATF employees on their T & A
forms did not correspond to the hours that they told us they had worked. For
example, 1 employee told the OIG that he worked 13 to 14 hours a day when
he was in Doha and 12 to 14.5 hours when he was in Baghdad, but we found
that he billed 15.5 hours every day. Similarly, a different employee who told
the OIG that he worked 13 to14 hours in Doha and 14 to 15 in Baghdad also
billed 15.5 hours every day.

        The Chief of ATF’s International Affairs Office said that he had been told
that ATF agents in Iraq worked a “grueling” schedule, but that he was not in a
position to make a personal judgment on the actual hours they worked. Since
all of the agents he sent worked for one of the task forces under the
supervision of the FBI’s On-Scene Commander, he said that the hours they
actually worked were the responsibility of the FBI.

     ATF estimated that it spent $4,175,731 on overtime in Iraq between 2003
and July 2008. 77


II.   Drug Enforcement Administration (DEA)

      A.     Background

      The DEA began sending four Special Agents at a time to Iraq in 2004.
Recently, the number of agents sent at any one time has declined to three,
although it can vary. As of June 2008, the DEA had sent a total of
approximately 45 agents to Iraq and Doha, Qatar. All DEA agents in Iraq
worked on either the RCLO, MCTF, or LAOTF. Most of the DEA agents lived in
the Green Zone in Baghdad, although a few have lived in military bases outside
Baghdad.

      Since 2003, the DEA has deployed approximately 52 employees to
Afghanistan for different lengths of time. The number deployed at any one time
has varied, but in the summer of 2008 the DEA had about 20 employees in
Afghanistan. Approximately half of them were deployed there for 120-days,
while the other half were there for much longer durations – sometimes a year
or more. All of the employees, who lived either in Kabul or in military facilities
around the country, were helping to advise and train Afghani police in counter-
narcotics investigations.

      77  Other government agencies reimbursed DOJ components for some of the money they
spent on overtime and premium pay. For example, for several years the Department of State
reimbursed the USMS for the overtime and premium pay of marshals providing security in
Iraq. Similarly, the RCLO reimbursed the FBI, DEA, ATF, and USMS for the overtime and
premium pay of their employees working on the Saddam Hussein trials.




                                           80
       B.   Pay Practices

       DEA employees received the same types of additional premium pay that
FBI agents received for service in Iraq and Afghanistan. Likewise, the DEA
agents in Iraq and Afghanistan had to work 10 hours on a regular work day – 8
hours of regular time and 2 hours of availability pay – before they were eligible
for overtime.

       All but 2 of the DEA agents sent to Iraq and Doha claimed 16 hours a
day, 7 days a week, every week. The two who claimed less both worked in
Doha. According to 1 agent, he reported 16 hours on weekdays, but reported
only 10 hours a day on weekends, which are Friday and Saturday in Iraq. As a
result, he reported 100 hours each week. The other said that he reported 14
hours a day every day except Sunday, when he went to church and took a long
dinner, and therefore reported only 8 hours for that day. As a result, he
reported 92 hours on most weeks.

       Although DEA employees have been serving in Afghanistan since 2003,
they received no overtime until February 2008 when the DEA allowed them to
start charging up to 10 hours a week of overtime. According to the DEA’s
country attaché in Kabul, most of the employees work at least 10 hours of
overtime each week and accordingly claim the full 10 hours. He said that none
of the overtime is scheduled because the “nature of the work” in Afghanistan
does not permit that sort of planning. DEA agents in Afghanistan are not
allowed to bill for meals or exercise time.

      The DEA estimated that overtime for its employees in Iraq cost
approximately $86,000 in FY 2004, $461,000 in FY 2005, $511,000 in FY
2006, and $564,000 in FY 2007. In addition, the DEA told us that other
premium pay for Iraq employees amounted to approximately $16,000 in FY
2004, $195,000 in FY 2005, $227,000 in FY 2006, and $313,000 in FY 2007.


III.   United States Marshals Service (USMS)

       A.   Background

       According to its payroll records, the USMS sent 84 employees to Iraq
between early 2004 and June 2008 in deployments lasting from approximately
4 to 6 months and varying in size from approximately 4 to 16 employees. Until
recently, the USMS sought volunteers only from its Special Operations Group
(SOG), a specialty unit that is deployed in high risk or sensitive law




                                       81
enforcement situations, civil disorders, or natural disasters. 78 All USMS
employees deployed to Iraq lived in Baghdad in the Green Zone.

      Most USMS employees in Iraq worked on judicial security, which
included supervising Iraqi guards at the two main courthouses in Baghdad;
running “safe houses” in Baghdad where witnesses, judges, and attorneys
could live without fear of retaliation; and escorting witnesses, judges and
attorneys to and from court proceedings. In addition, USMS employees
inspected courthouses in other parts of Iraq and gave suggestions on how to
improve security. A few USMS employees also worked on some of the task
forces, such as the RCLO and MCTF. According to a USMS supervisor, those
assigned to one of the task forces were also responsible for other USMS duties,
such as supervising a safe house, after completing their task force duties.

       B.     Pay Practices

      USMS employees received the same categories of premium pay as FBI
employees deployed to Iraq under similar conditions, with one exception. A
USMS official who supervises operations in Iraq told us that USMS employees
were paid their regular hourly wages for Sundays, but did not receive the
additional 25 percent “Sunday differential” paid to FBI employees. 79 In
addition, USMS employees sent to Iraq were given temporary promotions so
that their base pay was higher than it would have been in the United States. 80

       USMS policies regarding overtime are generally consistent with the
statutory and regulatory requirements previously described in this report.
Overtime must be approved, ordered, and scheduled in advance. If a USMS
agent is required to be “available for work” (standing by) during overtime hours
that were not scheduled in advance, he or she may receive availability pay
credit for those hours.




       78 In the summer of 2008, the USMS began sending a few non-SOG volunteers to work

on the MCTF.
       79  As explained in Chapter Six, with respect to FBI pay practices in Iraq, federal
regulations provide that the regular workweek is Monday through Friday and that Sunday
work is reimbursed as overtime. 5 C.F.R. § 610.11(a)(2) and 610.121(a). Sunday differential
pay is reserved for employees whose regular 5-day week includes Sunday, based on the needs
of the agency. It appears that unlike the FBI, the USMS complied with federal regulations
regarding Sunday pay.
       80  The USMS supervisor said that temporary pay raises were necessary because USMS
employees, in general, get paid less than employees at some of the other agencies in Iraq. He
said that the temporary pay raise helped give them “parity” with other employees stationed
there.




                                             82
      We reviewed all of the time cards submitted by USMS employees in Iraq
and found that virtually every employee claimed and was paid for 14 hours a
day, 7 days a week until the end of December 2004, and after that for 16 hours
a day, 7 days a week. Thus, it appears that USMS employees were originally
permitted to report no more than 14 hours a day, but were given permission in
2005 to increase that to 16 hours. However, we could not determine from the
available documents or witnesses why that change was made.

      The Acting Assistant Director of the USMS’s Tactical Operations Division,
which oversees USMS operations in Iraq, told us that although USMS
employees did not necessarily work 16 hours every day, they averaged 16
hours because they put in more on some days and less on others. He stated
that USMS employees who worked for the RCLO and MCTF generally worked
10 hours a day on task force business and then another 6 on other USMS
duties, such as running a safe house.

      The USMS calculated that overtime for its employees in Iraq cost
approximately $827,000 in FY 2005, $1.89 million in FY 2006, and $1.79
million in FY 2007. According to USMS calculations, premium pay cost an
additional $396,000 in FY 2005, $793,000 in FY 2006, and $830,000 in FY
2007.


IV.   Conclusions about Other DOJ Components

      We found that many of the same overtime and pay issues that arose with
the FBI also arose with other DOJ components who detailed employees to
Afghanistan and Iraq. For instance, with a few exceptions noted above, almost
all ATF, DEA, and USMS employees claimed overtime and other premium pay
based on 15.5 or 16 hours a day, 7 days a week, without variance. Although
these employees worked long hours during their deployments, several admitted
that they worked fewer hours than they reported. In addition, we believe that
the uniform practice of reporting these hours as work indicates that employees
were including time spent exercising, eating meals, and standing by for
assignments.

      In general, we were unable to find any written documentation from DOJ
components indicating that overtime was “scheduled in advance” so as to
correspond with the employees’ actual work requirements, as required under
federal pay laws and regulations. Moreover, in the case of agents receiving
availability pay (which was the case with most of these employees), the
components were not permitted to pay overtime for unscheduled hours;
instead, they were required to grant availability pay credits that would reduce
the amount of hours the agents would be required to work later in the year.




                                       83
                           CHAPTER TEN:
                 CONCLUSIONS AND RECOMMENDATIONS

      Many FBI employees worked long hours under difficult conditions in
Iraq. We found that the hours that FBI employees worked in Iraq varied among
assignments and locations, and they also varied from day to day depending on
events. Due to the lack of accurate documentation, it is impossible to
determine the exact hours worked by any particular individual in Iraq.
However, we believe that few if any employees in Iraq worked exactly 16 hours
a day, every day, for 90 days straight, and the evidence showed that some
employees worked significantly fewer hours than that.

      Nevertheless, in an effort to maximize compensation for all FBI
employees who volunteered for duty in Iraq, the FBI’s Counterterrorism
Division (CTD) encouraged and condoned the practice of FBI employees
reporting as compensable “work” all waking activities in Iraq, up to 16 hours
per day, every day.

      CTD managers and FBI employees gave several justifications for this
practice, including: (1) conditions in Iraq were harsh and there were few if any
recreational opportunities during off-hours; (2) employees in Iraq were always
in “on-call” status; and (3) 16 hours was a reasonable average given that on
some days FBI employees worked around the clock while on others they
worked fewer than 16 hours.

       Yet, the CTD’s pay reporting practices violated applicable laws,
regulations, and FBI policies, particularly with respect to the compensation of
Special Agents. In order to compensate FBI employees for 16 hours a day, the
CTD permitted them to claim overtime for activities that are not compensable
as “work,” such as eating, exercising more than 3 hours per week, commuting,
socializing, and “standing by” available for assignments.

       Moreover, Special Agents are permitted to receive overtime only if it is
scheduled in writing in advance of the workweek, and they may only be paid
for the precise hours that were scheduled in advance. All other work hours
must be compensated with credits for “availability hours,” effectively reducing
the number of hours the agent must actually work the rest of the year in order
to qualify for availability pay. Averaging hours to maximize overtime pay is not
permitted. Further, the FBI did not perform the financial and manpower
analyses that are a prerequisite to paying overtime under its own policies.

      We also found that the FBI failed to adequately monitor the hours
reported by its employees deployed to Iraq. Even after the FBI informed its
employees in March 2008 that they should only report the hours they actually
worked, the employees continued uniformly reporting 16 hours every day, and
supervisors in Iraq approved their pay sheets.


                                       84
      The CTD also violated FBI policy when it shifted the normal workweeks
for employees to a Sunday through Thursday schedule. Since all employees
were scheduled for 7 days a week, this switch had no impact on their actual
work schedules, but it served the sole function of enabling FBI employees to
claim a 25 percent pay differential for 8 hours of regularly scheduled “Sunday
work.” Yet, FBI policy does not permit such a schedule switch if it is merely for
the benefit of the employee.

      The FBI did not supply the OIG with records of the costs of overtime or
other premium pay in Iraq. We estimated that the total cost of overtime pay
and other categories of premium pay for FBI employees in Iraq from 2003 to
2007 has been approximately $63 million. Although many FBI employees
worked long hours in Iraq, a significant portion of the overtime and other
premium compensation paid to FBI employees was paid in violation of federal
pay laws and regulations and FBI policies. Based on the hours reported by
employees in 2008, when somewhat more accurate reporting requirements
were implemented, we estimated that FBI agents serving in Iraq prior to 2008
received at least $6.4 million in excess overtime pay, plus $1.4 million in
excess Sunday pay.

      We recognize that this estimate is a rough approximation. We also
recognize that we cannot state with certainty that the average hours that
employees reported in 2008 was representative of time FBI employees actually
worked during 2003-2007.

      However, we believe the $6.4 million estimate for excess overtime pay is
conservative for a variety of reasons. The estimate is based in part on hours
reported in early 2008, before the FBI had fully corrected its policies regarding
what activities may be reported as work. For example, the early 2008 hours
apparently included hours spent at mealtimes and exercise, which are not
properly claimed as overtime. In addition, the FBI has still never clarified that
time spent “standing by” cannot be claimed by agents as overtime, and it is
therefore likely that the 2008 audits include many hours in this category. If
those hours had been excluded, FBI employees would have reported fewer
hours in 2008 and our estimate of the excess overtime pay during prior years
would have been larger.

      Although we believe that FBI employees in Iraq and Afghanistan received
overtime pay in excess of what was permitted under federal pay statutes and
regulations, we do not recommend that the FBI attempt to recoup any excess
overtime paid. We do not believe that there is sufficiently specific evidence
regarding the time that individual agents actually worked to permit the FBI to
calculate excess payments to individual employees. The pay records that the
FBI agents were encouraged to submit did not accurately reflect their actual
hours of work.



                                       85
      We recognize that the FBI was operating in a crisis atmosphere in the
early period of the Iraq mission, and that management issues of first
impression were presented in a war zone environment. However, we believe
that CTD managers have had ample time since the beginning of the Iraq
deployments to develop proper pay procedures. We found that until 2008 they
never even consulted with the FBI’s Office of General Counsel to determine the
appropriate and legal pay practices for FBI employees in Iraq. As a result, the
CTD provided incomplete and inaccurate guidance to FBI employees regarding
the requirements for claiming overtime, which resulted in abuse of the overtime
system.

       Although the FBI issued three guidance documents during 2008 in an
effort to correct its overtime practices, these policies did not fully address the
problems. Among other things, the 2008 policies encourage a blanket approval
of “up to” 124 hours of overtime per pay period for all agents, rather than
requiring individualized work schedules that reflect the varying work
requirements of individual employee assignments; they fail to clarify that
Sunday pay is not available; and they fail to clarify that overtime pay cannot be
paid for time spent “standing by.”

      Finally, based on more limited reviews, we found similar problems with
FBI deployments in Afghanistan, as well employees sent by ATF, DEA, and
USMS to Iraq or Afghanistan.

       As a result of our investigation, we make the following recommendations
for the FBI and other DOJ components to correct their pay practices in the
future for employees deployed overseas. 81

1.     The FBI should issue new guidance and take steps to ensure that its
Overtime and Premium Pay policies are enforced in a manner that is consistent
with the requirements of federal pay statutes and regulations, and should train
its agents to comply with these requirements in advance of their deployments
to Iraq and Afghanistan.

       a.     In particular, under federal regulations and FBI policy, FBI agents
              may not be paid overtime hours for eating, socializing (regardless
              of whether alcohol is consumed), or “standing by.” Employee work
              schedules should specify a realistic amount of unpaid time within
              each shift for meals (such as ½ hour per meal), just as FBI work
              schedules provide in the United States.



       81 The FBI submitted a letter in response to this report as well as responses to some of

the OIG’s recommendations. These materials are attached in Appendix G.




                                              86
     b.    When overtime is scheduled in advance, the schedule should
           reflect the actual work requirements of Special Agents rather than
           a blanket approval of “up to” 6 or 8 hours for every weekday and
           16 hours for every weekend day for all employees, regardless of
           function or workload.

2.   ATF, USMS, and DEA should each issue new guidance documents
     governing premium pay for employees in Iraq and Afghanistan. This
     document should be drafted in consultation with the component’s Office
     of General Counsel, Human Resources Division or equivalent division,
     and the component’s division responsible for administering the missions
     in Iraq and Afghanistan. The guidance document should be consistent
     with relevant statutes, regulations, and component policies, and should
     at a minimum include the following:

     a.    The components should instruct employees regarding what
           activities in Afghanistan and Iraq can be reported as “work”
           according to federal regulations and applicable policies. In
           particular, employees may not report mealtimes or commuting
           time as work unless certain very restrictive conditions are satisfied,
           and may not report time spent socializing. Agents also may not
           report time spent “standing by” as overtime hours, although
           components may grant availability pay credit hours for such time.

     b.    The components must establish individualized work schedules for
           employees that state the regular hours, availability pay hours, and
           scheduled overtime hours that the employees will be working on
           each day in the upcoming week. This schedule must correspond to
           the actual work hours expected of the employees for the upcoming
           week being scheduled. The schedule should identify reasonable
           unpaid periods within the schedule for mealtimes, such as ½ hour
           for each meal that will be consumed on a particular day (typically 2
           meals in a 16-hour day, for example). A generic 16-hour schedule
           for all employees is not consistent with this requirement.

     c.    Components should establish reasonable and consistent policies
           for exercise during working hours.

     d.    Employees should be required to submit accurate records of the
           hours they actually work on each day, without averaging.
           Employees may only report time spent on compensable activities
           as discussed above.

     e.    According to federal pay statutes and regulations, the components
           may pay overtime to agents only for those hours that were
           scheduled in advance. If an agent works fewer hours than the


                                      87
           number scheduled for a particular day, the agent may be paid only
           for the hours the agent worked. If an agent works more hours
           than were scheduled in advance, the excess hours must be
           credited as availability pay hours and overtime pay may not be
           provided for these hours.

     f.    If employees in Iraq and Afghanistan are normally scheduled for 7
           days of work every week, the regular workweek should be Monday
           through Friday and all hours scheduled for Saturday or Sunday
           should be compensated as overtime hours. Sunday pay should
           not be granted for overtime hours.

3.   The components should adopt procedures that will permit a complete
     and accurate accounting of the costs for all categories of premium pay
     for their employees serving in Iraq and Afghanistan on a quarterly basis.
     For example, the components should adopt and fully implement a
     requirement, similar to that contained in the FBI’s 2005 Overtime
     Memorandum, for a review, on a quarterly basis, of the performance and
     output of its personnel in Iraq and Afghanistan to evaluate the quality
     and quantity of this mission-critical work. The quarterly audits should
     include the collection of information to determine whether the hours
     reported by component employees correspond to the hours actually
     engaged in compensable work activities.

4.   The FBI should conduct the financial analysis and manpower analysis
     required in the Part 1, Section 8-2.1.1(2) and (3) of the MAOP as a
     condition for approving scheduled overtime, and the FBI should make a
     de novo determination whether to order and approve scheduled overtime
     for personnel assigned to the Iraq and Afghanistan missions. Any such
     determination should be of limited duration, no longer than 1 year, and
     any renewal of such determination should take into consideration an
     updated financial analysis and manpower analysis as contemplated in
     the MAOP, as well as information collected in the quarterly audits.

5.   ATF, USMS, and DEA should comply with the requirement that overtime
     for their employees in Iraq and Afghanistan be officially ordered,
     approved in writing, and actually worked. Any component decision to
     order and approve overtime should be of limited duration, no longer than
     1 year. Any such decision, and any decision to renew the order and
     approval of overtime, should take into consideration costs, manpower
     consideration, and the results of quarterly audits.

6.   The FBI should consider reinstating the anonymous questionnaires given
     to employees returning from Iraq or Afghanistan, and should expand the
     questions to seek employee comments on any aspect of their work or the
     FBI’s mission in those countries.


                                     88
